No. 20-

In the Supreme Court of the United States
PRIANKA BOSE, PETITIONER
v.
RHODES COLLEGE AND ROBERTO DE LA SALUD BEA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
ADAM W. HANSEN
ELEANOR E. FRISCH
APOLLO LAW LLC
333 Washington Ave., N.,
Suite 300
Minneapolis, MN 55401
(612) 927-2969
BRYCE ASHBY
DONATI LAW, PLLC
1545 Union Avenue
Memphis, TN 38104

ALLON KEDEM
Counsel of Record
ANDREW T. TUTT
JAYCE BORN
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
allon.kedem@arnoldporter.com

ANYA A. HAVRILIAK
ARNOLD & PORTER
BRICE M. TIMMONS
KAYE SCHOLER LLP
BLACK MCLAREN JONES
RYLAND & GRIFFEE PC
1144 Fifteenth Street
530 Oak Court Dr., Ste. 360 Suite 3100
Memphis, TN 38117
Denver, CO 80202
(303) 863-1000

QUESTION PRESENTED

Title IX provides that “[n]o person in the United
States shall, on the basis of sex, be excluded from participation in, be denied the benefits of, or be subjected to
discrimination under any education program or activity
receiving Federal financial assistance.” 20 U.S.C. § 1681(a)
(emphasis added).
Prianka Bose’s chemistry professor falsely accused
her of cheating in his class because she rejected
his romantic advances. A disciplinary body of Rhodes
College—despite being warned about the professor’s
discriminatory motive—then expelled her based on evidence that he fabricated. The question presented is:
Whether a school that expels a student based on
charges and evidence motivated by sex bias denies that
student educational opportunities “on the basis of sex.”

(I)

RELATED PROCEEDINGS

The following proceedings are directly related to
this case within the meaning of Rule 14.1(b)(iii):
 Bose v. Bea, No. 18-5936 (6th Cir.), judgment entered on January 28, 2020; and
 Bose v. Bea, No. 2:16-cv-02308 (W.D. Tenn.),
judgment entered on February 27, 2018.

(II)

TABLE OF CONTENTS
Page

Opinions Below ..................................................................... 3
Jurisdiction ........................................................................... 3
Statutory Provision Involved .............................................. 3
Statement of the Case.......................................................... 3
A. Bose Rebuffs Her Professor’s Romantic
Advances .................................................................. 4
B. Bea Fabricates Evidence Against Bose and
Accuses Her of Cheating ......................................... 5
C. Rhodes College Expels Bose Based on Bea’s
False Accusations and Fabricated Evidence....... 7
D. Proceedings Below ................................................. 9
Reasons the Petition Should Be Granted ........................ 11
I. A School That Expels a Student Based on
False Charges and Evidence Motivated by SexBased Animus Acts “on the Basis of Sex” ............... 12
A. The Statute’s Text Prohibits a School from
Giving Effect to an Employee’s Biased
Agenda ................................................................... 13
B. The Sixth Circuit’s Atextual Reasoning Was
Flawed .................................................................... 17
II. The Decision Below Conflicts with Decisions
from Other Circuits .................................................... 21
III. This Case Warrants the Court’s Review ................... 25
Conclusion ........................................................................... 30
Appendix A: Opinion (6th Cir. Jan. 28, 2020) ................ 1a
Appendix B: Opinion (W.D. Tenn. Feb. 27, 2018) ....... 24a
Appendix C: Order (6th Cir. Mar. 23, 2020) ................ 59a

(III)

TABLE OF AUTHORITIES
Cases

Page(s)

Abramova v. Albert Einstein Coll. of Med. of
Yeshiva Univ.,
No. 06-cv-116, 2006 WL 8445809 (S.D.N.Y. July
26, 2006) ............................................................................ 26
Bank of Am. v. City of Miami,
137 S. Ct. 1296.................................................................. 13
Bostock v. Clayton County,
140 S. Ct. 1731 (2020) .................................................. 1, 12
Cannon v. Univ. of Chi.,
441 U.S. 677 (1979) .......................................................... 15
Comcast Corp. v. Nat’l Ass’n of African Am.Owned Media,
140 S. Ct. 1009 (2020) ...................................................... 13
Davis v. Monroe Cnty. Bd. of Educ.,
526 U.S. 629 (1999) ........................................ 15, 18, 20, 21
Doe v. Columbia Univ.,
831 F.3d 46 (2d Cir. 2016) ......................................... 23, 27
Emeldi v. Univ. of Oregon,
698 F.3d 715 (9th Cir. 2012) ..................................... 24, 27
Gebser v. Lago Vista Indep. School District,
524 U.S. 274 (1998) .................................. 10, 17, 18, 19, 25
Gossett v. Oklahoma ex rel. Bd. of Regents for
Langston Univ.,
245 F.3d 1172 (10th Cir. 2001) ................................. 23, 24
Irrera v. Humpherys,
859 F.3d 196 (2d Cir. 2017) ............................................. 26
Jackson v. Birmingham Bd. of Educ.,
544 U.S. 167 (2005) .......................................................... 21
Papelino v. Albany Coll. of Pharmacy of Union
Univ.,
633 F.3d 81 (2011) .......................................... 10, 21, 22, 27
(IV)

V
Cases—Continued

Page(s)

Staub v. Proctor Hosp.,
562 U.S. 411 (2011) ................................................. passim
Theidon v. Harvard Univ.,
948 F.3d 477 (1st Cir. 2020) ...................................... 24, 25
Univ. of Tex. Sw. Med. Ctr. v. Nassar,
570 U.S. 338 (2013) .......................................................... 13
Videckis v. Pepperdine Univ.,
150 F. Supp. 3d 1151 (C.D. Cal. 2015) ........................... 26
Statutes & Rules

20 U.S.C. § 1681(a) ......................................... 1, 3, 12, 20, 21
20 U.S.C. § 1682 ............................................................ 15, 25
28 U.S.C. § 1254(1) ............................................................... 3
38 U.S.C. § 4311(a) ............................................................ 14
6th Cir. R. 28(a) .................................................................... 4
Regulations

34 C.F.R. § 106.71............................................................... 16
34 C.F.R. § 106.71(a) .......................................................... 16
Nondiscrimination on the Basis of Sex in
Education Programs or Activities Receiving
Federal Financial Assistance, 85 Fed. Reg.
30,026 (May 19, 2020) .......................................... 16, 19, 28
Other Authorities

Alexandra Laird & Emily Pronin, Professors’
Romantic Advances Undermine Students’
Academic Interest, Confidence, and
Identification, 83 Sex Roles 1 (2020) ............................ 26
David Cantor et al., Report on the AAU Campus
Climate Survey on Sexual Assault and Sexual
Misconduct (2020), https://bit.ly/3iynMAL .................. 26
Harper & James, Law of Torts § 7.13 (1956)................... 13

VI
Other Authorities—Continued

Page(s)

Random House Dictionary of the English
Language 1415 (1966) ..................................................... 20

PETITION FOR A WRIT OF CERTIORARI

A professor falsely accuses a student of cheating because she rejected his romantic advances, and he succeeds in having her expelled based on fabricated evidence. Is the dismissal “on the basis of ” sex? Under any
normal understanding of the term, the answer is yes.
The professor’s sex-based retaliation is an obvious and
direct reason for the school’s expulsion. In the language
of Title IX: “[O]n the basis of ” the student’s sex, she was
“excluded from” and “denied the benefits of ” educational
opportunities and was “subjected to discrimination.”
20 U.S.C. § 1681(a).
That perfectly describes what happened here. Because Prianka Bose rebuffed the inappropriate overtures
of her chemistry professor, Roberto de la Salud Bea, he
filed false charges against her and fabricated evidence of
her supposed cheating. Despite repeated warnings
about Bea’s motivations, Rhodes College relied on his
false charges and evidence to expel her anyway. None of
this would have happened if Bose had been male. As this
Court recently put it, “changing [her] sex would have
yielded a different” outcome. Bostock v. Clayton County, 140 S. Ct. 1731, 1741 (2020).
The Sixth Circuit nevertheless held that Title IX
provides no recourse in those circumstances, on the theory that Rhodes’s own lack of “discriminatory motive”
severed the “required connection” between an undeniably
sex-based act of retaliation and the school’s decision.
Pet. App. 9a. That conclusion cannot be squared with
the statute’s plain language, which the Sixth Circuit did
not even bother to interpret. It ignores “axiomatic”
principles of causation, under which “the exercise of
judgment by [a] decisionmaker does not prevent” a subordinate’s discriminatory actions “from being the proximate cause of the harm.” Staub v. Proctor Hosp., 562
(1)

2
U.S. 411, 419 (2011). It contravenes the basic purposes
of a statute designed to prevent federal-funding recipients from closing their doors to students of one sex, if
students of the other would have access. And it contradicts guidance from the U.S. Department of Education,
which prohibits teachers and other school officials from
weaponizing codes of conduct against students who rebuff or report sexual harassment.
The ruling below also directly conflicts with decisions from other courts of appeals, which have held educational institutions responsible under Title IX for giving
effect to charges and evidence motivated by sex-based
animus. The Sixth Circuit acknowledged the contrary
authority but “decline[d] to follow it.” Pet. App. 14a.
Perhaps worst of all, the Sixth Circuit’s decision creates a blueprint for schools to shield themselves from liability for sex-based decisions, even where those schools
have actual knowledge that they are effectuating an employee’s discriminatory agenda. This Court has dismissed as “implausible” the notion that Congress would
outlaw discrimination, yet allow entities to skirt that
prohibition by “isolat[ing]” the ultimate decisionmaker
from “discriminatory acts and recommendations of
[employees] that were designed and intended to produce
the adverse action.” Staub, 562 U.S. at 420. Yet that is
precisely what the Sixth Circuit’s decision, if allowed to
stand, would mean: A school can launder even the most
blatant discrimination through the expedient of an additional layer of decision-making—even if it uncritically
rubber-stamps a decision it knows was based on a prohibited consideration.
This Court’s intervention is necessary to resolve a
circuit conflict on a frequent and recurring issue, and to
overturn an atextual causation standard that relegates
Title IX claims to second-class status.

3
OPINIONS BELOW

The opinion of the court of appeals (Pet. App. 1a23a) is reported at 947 F.3d 983. The opinion of the district court (Pet. App. 24a-58a) is unreported but available
at 2018 WL 8919932.
JURISDICTION

The judgment of the court of appeals was entered on
January 28, 2020. Pet. App. 1a. The court of appeals denied a timely petition for rehearing on March 23, 2020.
Id. at 59a. By order of March 19, 2020, this Court extended the deadline for all petitions for writs of certiorari due on or after the date of the Court’s order to 150
days from the date of the lower court judgment or order
denying a timely petition for rehearing. The jurisdiction
of this Court is invoked under 28 U.S.C. § 1254(1).
STATUTORY PROVISION INVOLVED

Section 1681(a) of Title 20, United States Code, provides in relevant part: “No person in the United States
shall, on the basis of sex, be excluded from participation
in, be denied the benefits of, or be subjected to discrimination under any education program or activity receiving
Federal financial assistance.”
STATEMENT OF THE CASE

Prianka Bose was excelling at Rhodes College,
where her academic and extracurricular success earned
her early admission to medical school. But less than two
weeks after she rejected the romantic advances of her
chemistry professor, Roberto de la Salud Bea, she found
herself facing false allegations of cheating. Based on a
fake answer key that Bea created—and despite Bose’s
repeated warnings that Bea was framing her for sexbased reasons—Rhodes expelled her.

4
A.

Bose Rebuffs Her Professor’s Romantic Advances

Prianka Bose enrolled at Rhodes College in the fall
of 2013. Pet. App. 2a. During her time there, she played
varsity tennis and studied history and neuroscience,
earning a cumulative GPA of 3.7. Her stellar performance gained her admission to medical school through
George Washington University’s early selection program. C.A. Rec. 1016-17.1
In the spring of 2015, Bose enrolled in Roberto de la
Salud Bea’s Organic Chemistry I course. She did well,
and signed up for Bea’s Organic Chemistry II class the
next semester. C.A. Rec. 1234-35. Bea considered her a
“fantastic” student; he even chose her as a reference for
his upcoming tenure review. C.A. App’x 19.
Over the summer, though, Bea’s behavior started to
cross a line. In July, he approached Bose alone in a
parking lot, standing a little too close. After some small
talk, the conversation took a turn. Bea asked how she
spent her evenings—do you “ ‘hangout with your boyfriend?’ ” C.A. Rec. 1329-30. This made Bose “uncomfortable”; she’d never mentioned a boyfriend. Id. at
1330. Then, as Bose was about to leave, Bea reached his
hand towards her and asked, “ ‘would you like to go out
to dinner with me just to catch up[?]’ ” Id. at 1331. She
politely declined. Ibid.
Bea’s inappropriate behavior escalated throughout
the fall of 2015. He regularly complimented Bose’s clothing and appearance, calling her “ ‘pretty’ ” and
“ ‘beautiful.’ ” C.A. Rec. 1127, 1342. He visited her other
classes just to speak with her; arranged special meetings; and asked personal questions about her family, social life, and dating. Id. at 1333, 1368, 1373-76; see C.A.
Citations to “C.A. Rec.” refer to the Sixth Circuit’s “Page ID”
convention. Citations to “C.A. App’x” refer to the appendix filed in
the court of appeals. See 6th Cir. R. 28(a).
1

5
App’x 106 (“He was really interested in my sorority, and
whether I go to parties on campus.”). Bose became wellpracticed at sidestepping these uncomfortable encounters. See C.A. App’x 106 (“I said I, you know, do what
typical college kids do and then I told him that I needed
to leave because I had a meeting.”). Bea invited Bose to
be his research assistant, but she declined. Id. at 106-07.
Things came to a head on November 19. That day,
Bea approached Bose from behind in the cafeteria,
leaned over her shoulder, and asked if she was “ ‘texting
[her] boyfriend.’ ” Id. at 107; C.A. Rec. 1334-35. Bose
was too startled to respond; Bea just smiled and walked
away, seeming “pretty happy with himself.” C.A. App’x 107.
A friend who witnessed the cafeteria interaction encouraged Bose to report it to the school. C.A. Rec. 1335.
Instead, accompanied by the same friend, she approached Bea outside the chemistry building and raised
the issue directly with him:
[L]ook, Dr. Bea, I don’t know if you mean it this
way, but I feel really uncomfortable when you ask
me questions about my boyfriend, when you ask me
anything about my family, I don’t want personal
questions, I want to keep our relationship strictly
professional.
Id. at 1336-37. Bose expected Bea to agree. Instead, he
became “furious” and walked away silently, eyes on the
floor. Id. at 1077, 1337.
B. Bea Fabricates Evidence Against Bose and Accuses
Her of Cheating

Following the November 19 confrontation, Bea’s behavior changed markedly. The next day, Bose took a
midterm exam in his office. Id. at 1051, 1337-38. (Taking
exams early in Bea’s office was common and was encouraged by the course syllabus. Id. at 1049, 1374-75.) Bose
could immediately tell something was different: Unlike

6
his normal habit of chatting with her whenever possible,
this time Bea just tossed the exam on the desk and
“didn’t say anything” to her. Id. at 1338-39. Bose scored
a 74 on the exam, near the class average, but Bea recorded her score as a 47. Id. at 1406, 1409-10.
Bea’s cold and silent treatment became the new
norm. Id. at 1339-41. Bose sought to ask him about
practice problems before class, but Bea didn’t respond;
he “just shrugged his shoulders.” C.A. App’x 108. He
also stopped calling on Bose when she raised her hand in
class. Id. at 109. Feeling uneasy about the situation,
Bose followed him to his office after class and asked to
speak with him, but he wouldn’t even look at—much less
respond to—her. So she spoke: “Dr. Bea, I feel like it’s
been really weird and there’s been a lot of tension between us, and I just wanted you to know that it’s not like
I’m going to report you or anything. I just want to come
to class and finish off the semester.” Ibid. Again, only
silence. Ibid.
On December 2, less than two weeks after the cafeteria incident and subsequent confrontation, Bose arranged to take the final quiz in Bea’s course early, so she
could travel home for a family event. C.A. Rec. 1108.
Bose had previously taken tests early when necessary to
accommodate her travel schedule with the tennis team.
Id. at 1049, 1091-1100. For the final quiz, Bose arrived
as usual at his office at 7:45 a.m. and finished in the allotted time. Id. at 1422.
Approximately two hours after Bose finished, Bea
modified a document on his computer titled “Quiz 5
Amswers.docx.” Id. at 1415, 1425. Bea said it was a decoy answer key, which he created to catch her cheating.
He later asserted (without corroboration) that he had
long suspected Bose of looking at his computer when
taking tests in his office. Id. at 1401. Bea said the decoy
included some deliberately false answers; since Bose’s

7
quiz matched the supposed decoy word-for-word, she
must have copied it. In fact, the opposite was true: Bea
had changed the fake answer key to match Bose’s genuine quiz answers. Id. at 1382, 1414, 1425, 1430, 1435-36.2
Bea took this fake proof, along with other unsupported allegations, to the dean of students. Id. at 1246,
1248. Bea’s charges triggered an investigation by the
Honor Council, a student-elected, student-run body invested by Rhodes College with authority to judge alleged
honor code violations. Id. at 1250. On December 4—just
fifteen days after confronting Bea about his inappropriate behavior—Bose was told that she faced potential expulsion for having “cheated on multiple assignments” in
his class. Id. at 1109, 1142.
C.

Rhodes College Expels Bose Based on Bea’s
False Accusations and Fabricated Evidence

The Honor Council hearing took place before a panel
of twelve students, one of whom was Bea’s teaching assistant. Id. at 4; C.A. Rec. 1081. Bose was not allowed
representation. C.A. App’x 138.
The hearing’s main witness was Bea, who leveled
various accusations against Bose, several of which were
later shown to be lies. For example, he insisted that
when Bose was forced to take her midterm exam alongside other students—rather than in his office, where she
could access the answer key on his computer—she
“failed the exam,” receiving the “second worst” score in
the class. Id. at 21. In reality, as noted above, Bea had
mismarked her score. C.A. Rec. 1406. Bea also claimed
that she used his laptop to alter her grades on four tests,
Because Bose had averaged over 100% (including bonus points)
on the other quizzes, and since the class policy was to drop each
student’s lowest quiz score, she had no incentive to cheat on the final quiz. Id. at 1006-07, 1048, 1310.
2

8
another accusation later proven false. Id. at 1028-29,
1045-46, 1310; C.A. App’x 21-22.
But the linchpin of Bea’s accusation was the doctored answer key for the final quiz. How could her quiz
have matched the key unless she cheated? Bea insisted,
repeatedly, that the key was last “modified two days before [Bose] took that quiz.” C.A. Rec. 1398. Yet another
lie: All parties’ forensic experts later agreed that the
document was modified approximately two hours afterwards. Id. at 1414, 1425, 1430, 1435-36.
Bose also testified at the hearing, denying that she
had cheated and explaining her view that “Dr. Bea’s fake
key matches my answers,” not the other way around.
C.A. App’x 72. During Bea’s testimony against her, Bose
realized why Bea had leveled these allegations: He was
wounded by her rejection and worried she would report
his inappropriate conduct, putting his tenure chances at
risk. See id. at 66 (Bea: “Do you think I’m going to put
in jeopardy my tenure because of you?”). Bose explained
to the Honor Council her understanding that the cafeteria incident and the ensuing confrontation were the
“reason . . . why this is happening.” Id. at 72. As she
summarized, “[t]his is not the first time that an ego-hurt
professor would harm a student.” Ibid.
The Honor Council, however, would not allow Bose
to ask witnesses to testify about the facts underlying
Bea’s retaliation. C.A. Rec. 1082, 1178. And when she
asked Bea directly about his inappropriate behavior—
the cafeteria incident, questions about her boyfriend—
Bea simply feigned ignorance. C.A. App’x 72 (“I don’t
remember the—anything. I have many students. I talk
to them. . . . Sometimes we talk, oh, we have today exam.
Very simple things. I cannot recall any of these things.”).
Notably, in deposition testimony months later, Bea admitted remembering the cafeteria incident and inquiring
about Bose’s boyfriend. C.A. Rec. 1423 (“I didn’t ask if

9
she had a boyfriend. I just said, oh, is this your boyfriend?”).
The Honor Council voted to expel Bose. Id. at 1052.
Bose appealed to the Faculty Appeals Committee. She
submitted a statement describing Bea’s sexual harassment and retaliation, and pointing out that he alone had
created all of the evidence against her. Id. at 1180-1221.
The Committee, however, did “not attempt to determine” whether Bose’s allegations of retaliation were accurate, limiting review solely to whether there was “sufficient evidence to reach the decision that [the] Honor
Council did.” Id. at 1019. Finding sufficient evidence, the
Committee upheld the violation. Id. at 1133-34. Bose was
dismissed from Rhodes College; as a consequence, her
early admission to medical school was rescinded. Id. at 14.
In February 2016, Bose submitted an administrative
Title IX complaint to Rhodes College alleging sexual
harassment and retaliation. Id. at 1135. Rhodes hired
outside counsel to investigate and prepare a report. Id.
at 1135-36. Though the Honor Council proceeding and
the allegations that led to it formed the entire basis of
Bose’s retaliation complaint, the report discussed neither
Bea’s retaliation nor the Honor Council proceedings that
he had initiated. Id. at 2223-37. Bose never received a
hearing on her complaint. Id. at 1387. Instead, Rhodes
sent her a one-paragraph form letter stating that “the allegations of sexual harassment and retaliation in violation of the College’s policy cannot be sustained.” Id. at
1231.
D. Proceedings Below

Bose filed suit against Rhodes College and Bea, asserting (as relevant here) a Title IX claim against
Rhodes. The district court granted summary judgment
for Rhodes on the claim. Pet. App. 57a.

10
The Sixth Circuit affirmed the grant of summary
judgment on Bose’s Title IX claim. Id. at 7a-18a. It accepted as true that Bea had fabricated evidence against
Bose in retaliation for rejecting what the court called his
“unwelcome attention.” Id. at 9a. But the Sixth Circuit
nonetheless held that Bose could not establish “causation”—that is, “the required connection between Bose’s
opposition to Bea’s unwelcome conduct and Rhodes’ act
of expelling her.” Ibid. In so ruling, the Sixth Circuit relied on this Court’s decision in Gebser v. Lago Vista Independent School District, 524 U.S. 274 (1998). Under
Gebser, the Sixth Circuit explained, schools are not liable
for the actions of their employees via respondeat superior principles; a “recipient of federal funds may be liable
in damages under Title IX only for its own misconduct.”
Pet. App. 11a (citation omitted).
In the Sixth Circuit’s view, that principle precluded
Bose’s Title IX claim. Rhodes College chose to expel
her, the court acknowledged, but “that decision only violated Title IX if it was made ‘on the basis of sex,’ ” and
“Bose has no evidence of any discriminatory motive on
Rhodes’ part.” Id. at 13a. To connect Bose’s expulsion
to Bea’s “retaliatory animus,” the Sixth Circuit stated,
“would be to hold Rhodes liable for its employees’ independent actions—precisely what Gebser forbids.” Ibid.
(quotation marks omitted).
The Sixth Circuit noted that Bose “asks us to follow
the Second Circuit’s decision” in Papelino v. Albany College of Pharmacy of Union University, 633 F.3d 81
(2011). Pet. App. 13a. There, a student was expelled for
cheating based on evidence fabricated by his professor in
retaliation for reporting the professor’s sexual harassment. Id. at 14a. The district court granted summary
judgment for the school on the student’s Title IX claim,
but the Second Circuit reversed, finding a sufficient
“causa[l]” link between professor’s accusations and the

11
expulsion. Ibid. The Sixth Circuit deemed Papelino to
be inconsistent with Gebser, however, and “decline[d] to
follow it.” Ibid.
REASONS THE PETITION SHOULD BE GRANTED

When a federal-funding recipient expels a student
based on sex-biased charges and evidence—despite being warned about the unlawful motive behind them—it
denies that student an educational opportunity “on the
basis of sex,” in violation of Title IX. The Sixth Circuit’s
contrary conclusion reflects the untenable position that,
so long as the ultimate decisionmaker was unbiased, sex
plays no impermissible role in the expulsion. But Prianka Bose repeatedly warned Rhodes College that Roberto de la Salud Bea was framing her for rejecting his
romantic advances, and the school gave effect to his discriminatory agenda anyway. Had Bose been male, she
would have graduated from Rhodes by now.
The decision below is based not on Title IX’s text,
but instead on a misreading of this Court’s case law. The
Sixth Circuit’s opinion cannot be squared with the statute’s plain language, with common-law principles of causation, or with the reasoning of Staub v. Proctor Hospital, 562 U.S. 411 (2011), which held that an employer discriminates “on the basis” of a protected characteristic
when it carries out the biased agenda of a supervisor
who directly influenced, but did not make, the ultimate
employment decision. Taking a similar view of Title IX,
the U.S. Department of Education has noted that teachers often charge students with code of conduct violations
to retaliate when their romantic advances are spurned or
reported, and its regulations make clear that weaponizing the school’s disciplinary process that way violates the
statute.
The ruling below directly conflicts with decisions
from other courts of appeals, which have upheld identical

12
student claims. These courts find adequate causation
where a professor’s sex-based charges and evidence have
their intended effect of leading the university to punish a
student. Had Bose’s suit arisen in any of those circuits,
her claim would have survived summary judgment.
The question presented in this case is of tremendous
practical significance. Today, schools increasingly employ multi-layer processes like the one used by Rhodes
College here: Charges are submitted by teachers and
other school officials, evaluated by a disciplinary committee, and then appealed to the ultimate decisionmaker.
Under the Sixth Circuit’s ruling, a school can give effect
to even the most blatantly biased and fraudulent accusations and evidence, despite being warned about the bias,
so long as there is no evidence of animus at the final step.
The decision below thus provides a roadmap for harassment and retaliation with impunity—precisely what happened here. Indeed, it is hard to imagine a more clearcut case in which a student was denied an educational
opportunity “on the basis of sex.”
I.

A School That Expels a Student Based on False
Charges and Evidence Motivated by Sex-Based
Animus Acts “on the Basis of Sex”

Title IX provides that “[n]o person in the United
States shall, on the basis of sex, be excluded from participation in, be denied the benefits of, or be subjected to
discrimination under any education program or activity
receiving Federal financial assistance.”
20 U.S.C.
§ 1681(a). As this Court has explained, statutory phrases
like “on the basis of ” and “because of ” impose a causation requirement: A violation occurs “if changing the
[plaintiff ’s] sex would have yielded a different” outcome,
contravening Congress’s command that sex should “not
[be] relevant.” Bostock v. Clayton County, 140 S. Ct.
1731, 1741 (2020).

13
A case in which the bias originates with someone
other than the ultimate decisionmaker is sometimes
called a “cat’s paw” case, after Aesop’s fable. Staub, 561
U.S. at 415 n.1. The Sixth Circuit here ruled that, as a
matter of law, such cases are never actionable under
Title IX. That holding is inconsistent with the statute’s
text and purposes, with basic common-law principles,
with this Court’s construction of analogous antidiscrimination statutes, and with interpretive guidance from the
U.S. Department of Education.
A.

The Statute’s Text Prohibits a School from
Giving Effect to an Employee’s Biased Agenda

In plain English, something occurs “on the basis of ”
a particular factor that plays a direct causal role in the
result. The causation inquiry “directs our attention to
the counterfactual—what would have happened if the
plaintiff had been” of a different status? Comcast Corp.
v. Nat’l Ass’n of African Am.-Owned Media, 140 S. Ct.
1009, 1015 (2020). Thus, when a school takes some action
that leaves its educational benefits less available to a female student than to a male one, or vice versa, the school
has denied an opportunity “on the basis of sex.” See
Univ. of Tex. Sw. Med. Ctr. v. Nassar, 570 U.S. 338, 346
(2013) (The “simple test” is “whether the evidence shows
treatment of a person in a manner which but for that
person’s sex would be different.”) (citation omitted).
Under this commonsense definition, a university
that expels a student based on evidence fabricated by a
professor in retaliation for turning down his romantic
advances has excluded that student “on the basis of ” her
sex. Factual (but for) causation undoubtedly exists in
such a scenario: Neither the retaliation nor the expulsion would have occurred had the student been male instead of female.
Proximate causation—that is, “some direct relation
between the injury asserted and the [bias] alleged,”

14
Bank of Am. v. City of Miami, 137 S. Ct. 1296, 1306 (citation omitted)—exists there too. Under common-law
principles, “all intended consequences” of an intentional
act “are proximate.” Harper & James, Law of Torts
§ 7.13, p. 584 (1956); see Staub, 562 U.S. at 417 (“[W]hen
Congress creates a federal tort it adopts the background
of general tort law.”). Retaliation that is intended to
produce a student’s expulsion, and does produce that result, meets this test. To be sure, the ultimate “decisionmaker’s exercise of judgment is also a proximate
cause of the [expulsion], but it is common for injuries to
have multiple proximate causes.” Staub, 562 U.S. at 420.
Staub is directly on point. In that case, the plaintiff
was a member of the Army Reserve who was falsely accused
by his supervisor of a disciplinary violation due to hostility towards his military service. Id. at 414-15. The company’s human resources vice president then “relied on
[the false] accusation” and fired the plaintiff. Id. at 415.
The question was whether the company was liable under
the Uniformed Services Employment and Reemployment Rights Act, which prohibits the denial of employment “on the basis of ” military service. Id. at 416 (quoting 38 U.S.C. § 4311(a)).
In answering that question, this Court observed,
“the requirement that the biased supervisor’s action be a
causal factor of the ultimate employment action incorporates the traditional tort-law concept of proximate
cause.” Id. at 420. “And it is axiomatic under tort law
that the exercise of judgment by the decisionmaker does
not prevent the earlier agent’s action (and hence the earlier agent’s discriminatory animus) from being the proximate cause of the harm.” Id. at 419. The Court thus rejected the defendant’s argument “that the employer is
not liable unless the de facto decisionmaker (the technical decisionmaker or the agent for whom he is the ‘cat’s
paw’) is motivated by discriminatory animus.” Ibid. In-

15
stead, the Court held, the company could be liable for its
own role in making the biased report a “causal factor” in
the plaintiff ’s firing. Id. at 421.
That plain-language conclusion was also necessary
to avoid “an unlikely meaning [for] a provision designed
to prevent employer discrimination.” Id. at 420. In the
employment context, the Court explained, “[t]he one who
makes the ultimate decision does so on the basis of performance assessments by other supervisors,” from whom
the ultimate decisionmaker is often “isolate[d].” Ibid.
Denying liability under those circumstances would mean
“the employer will be effectively shielded from discriminatory acts and recommendations of supervisors that
were designed and intended to produce the adverse action.” Ibid. The Court declined to endorse such “an implausible meaning of the text.” Ibid.
The same reasoning applies here. Federal-funding
recipients often incorporate the feedback of supervisors
(e.g., professors) into disciplinary decisions made on the
recipient’s behalf by a separate body, such as Rhodes’s
Honor Council and Faculty Appeals Committee. Moreover, given “Title IX’s ‘unmistakable focus on the benefited class,’ rather than the perpetrator,” it makes particular sense to hold schools accountable when they rely on
the biased accusations of faculty to deny educational
opportunities to students. Davis v. Monroe Cnty. Bd. of
Educ., 526 U.S. 629, 639 (1999) (quoting Cannon v. Univ.
of Chi., 441 U.S. 677, 691 (1979)). It also serves Title IX’s
primary “objectives”: “avoid[ing] the use of federal
resources to support discriminatory practices,” and
“provid[ing] individual citizens effective protection
against those practices.” Cannon, 441 U.S. at 704. Neither of those objectives would be satisfied by allowing a
university—through the simple expedient of “isolat[ing]”
the ultimate decisionmaker—to give effect to a professor’s discriminatory agenda. Staub, 462 U.S. at 420.

16
Finally, the Executive Branch similarly interprets
Title IX to prohibit a school from giving effect to the discriminatory agenda of its teachers and officials. The
U.S. Department of Education, which administers the
statute, see 20 U.S.C. § 1682, has issued guidance “to effectuate Title IX’s prohibition against sex discrimination.” Nondiscrimination on the Basis of Sex in Education Programs or Activities Receiving Federal Financial Assistance, 85 Fed. Reg. 30,026 (May 19, 2020). The
Department’s guidance includes regulations that prohibit retaliation against a student for engaging in protected
conduct under Title IX. 34 C.F.R. § 106.71. Notably, the
anti-retaliation prohibition expressly covers the scenario
at issue in this case: where a student’s complaints about
a teacher’s sexual misconduct lead to retaliatory accusations that are designed to elicit punishment from a neutral decisionmaker.3
The Department’s regulations thus recognize that a
Title IX violation occurs if a teacher files “charges
against an individual for code of conduct violations . . . for
the purpose of interfering with any right or privilege secured by title IX.” 34 C.F.R. § 106.71(a). In its rulemaking, the Department explained that this provision responds to real-world instances in which “perpetrators
explicitly told victims not to report or they would get the
victim in trouble for collateral offenses, such as underage
drinking.” 85 Fed. Reg. at 30,536. What happened in
this case, of course, is even more egregious: Unlike the
underage-drinking example, the charges at issue here
are entirely false. And false allegations of cheating are
The Department drafted this provision after “hear[ing] from
individuals who faced retaliation for filing complaints. These individuals faced continued harassment by respondents, received lower grades from professors reported as harassers, or lost scholarships due to rebuffing sexual advances from teachers.” 85 Fed.
Reg. at 30,057 (emphasis added).
3

17
particularly pernicious, because they can cloud a student’s academic record even after she graduates or otherwise leaves the school. Under the Department’s view
of Title IX, what Rhodes did to Bose violates the statute.
B. The Sixth Circuit’s Atextual Reasoning Was Flawed

In rejecting Bose’s Title IX claim, the Sixth Circuit
did not dispute that Bose’s sex played a determinative
role in her expulsion (but-for causation), or that Bea’s
false charges and fabricated evidence had precisely their
intended effect (proximate causation). Nor did the Sixth
Circuit offer an alternative construction of “on the basis
of sex.” Indeed, the court did not even purport to interpret the text of Title IX at all. Instead, the Sixth Circuit
offered a variety of doctrinal and policy-based arguments, none of which justifies ignoring the statute’s plain
meaning.
1. The Sixth Circuit’s primary rationale was that
holding Rhodes College liable for expelling Bose would
be inconsistent with this Court’s decision in Gebser v.
Lago Vista Independent School District, 524 U.S. 274
(1998). There, a student attempted to hold her school
district liable for sexual harassment committed by one of
her teachers. Id. at 278-79. Because the student “did not
report the [misconduct] to school officials,” this Court
explained, the student could recover from the school only
under one of two theories: (1) respondeat superior, also
known as “vicarious” liability; or (2) “constructive notice,” meaning the school district would be liable because
it “ ‘should have known’ about [the] harassment.” Id. at
278, 282.
Exercising its “latitude to shape a sensible remedial
scheme that best comports with the statute,” the Court
concluded that neither theory was adequate. Id. at 284.
In the Court’s view, Congress would not have wanted to
authorize “a damages recovery against a school district
for a teacher’s sexual harassment of a student based on

18
principles of respondeat superior or constructive notice,
i.e., without actual notice to a school district official.” Id.
at 285. The Court accordingly held that “a damages
remedy will not lie under Title IX unless an official who
at a minimum has authority to address the alleged discrimination and to institute corrective measures on the
[federal-funding] recipient’s behalf has actual knowledge
of discrimination in the recipient’s programs and fails
adequately to respond.” Id. at 290.
Gebser does not support the Sixth Circuit’s decision
here. As a primary matter, Gebser did not interpret the
phrase “on the basis of sex.” It is not a case about causation at all; neither the word nor the concept appears in
the decision. Indeed, there was no dispute about whether sex discrimination had caused the school district’s adverse action because the district did not act at all . The
question instead was solely whether a private damages
remedy was available against the school district for its
“failure” to act. Id. at 291. At issue in this case, of
course, is not a school’s failure to act but its affirmative
decision to expel a student, which all sides agree is an
adverse action for purposes of Title IX.
The concerns that animated Gebser are similarly inapplicable here. Both theories of recovery that Gebser
rejected—respondeat superior and constructive notice—
were theories “under which [the school district] would be
liable for [the teacher’s] conduct.” Id. at 282. The Court
thus declined the plaintiff ’s attempt to hold a federalfunding recipient liable “not for its own official decision
but instead for its employees’ independent actions.” Id.
at 290-91. But that principle has no application to this
case, where Bose seeks to hold Rhodes College responsible for its own decision to expel her. Gebser says nothing about the propriety of relief under those circumstances. See Davis, 526 U.S. at 642 (Gebser reaffirmed
availability of “a private damages action under Title IX

19
where the funding recipient engages in intentional conduct that violates the clear terms of the statute”).
2. The Sixth Circuit also asserted that “[c]at’s paw
liability” is incompatible with Title IX because it “does
not require either actual notice to the funding recipient
or any ‘official decision’ by it.” Pet. App. 12a (quoting
Gebser, 524 U.S. at 291). Both parts of that assertion are
incorrect. Without an “official decision” by the ultimate
decisionmaker (e.g., the human resources vice president
in Staub, or Rhodes College here), a supervisor’s biased
accusations would not have their intended effect. In such a
scenario—unlike in this case—the victim would not have
been excluded from any educational benefit at all, much
less “on the basis of ” her sex.
Nor would the causation theory advocated here dispense with any “actual notice” requirement. Under
Gebser, a plaintiff who alleges that a school was deliberately indifferent to harassment will be unable to recover
damages unless a school official with “authority to address the alleged discrimination” received actual notice
of it, yet failed to institute “corrective measures.” 524
U.S. at 290. But even assuming that such an actualnotice limitation applies to other types of Title IX
claims,4 it provides no reason to deny relief where actual
notice in fact exists. In this case, for instance, Bose repeatedly told the school that Bea was framing her in retaliation for rejecting his romantic advances. E.g., C.A.
App’x 72; C.A. Rec. 1182-83. As Rhodes itself acknowledged, “[b]oth the Honor Council and the Faculty ApAs the Department of Education has explained, “the Supreme
Court has not applied an actual knowledge requirement to a claim
of retaliation,” nor to any Title IX claim other than deliberate indifference. 85 Fed. Reg. at 30,537. The Department has expressed its view that “the actual knowledge requirement . . . does
not apply to a claim of retaliation.” Ibid.
4

20
peals Committee . . . were acutely aware that [Bose] believed Dr. Bea had a retaliatory motive to accuse her of
cheating.” C.A. Rec. 1557. Having decided to expel her
anyway on the basis of Bea’s accusations and evidence,
Rhodes certainly cannot now complain that it lacked “actual notice.”
3. Finally, the Sixth Circuit asserted that Title IX
applies only where a federal-funding recipient’s “decision
was taken for a discriminatory reason.” Pet. App. 13a;
see ibid. (“Bose has no evidence of any discriminatory
motive on Rhodes’ part.”). The Sixth Circuit cited no authority for that proposition, which cannot be reconciled
either with the language of the statute or with controlling precedent.
As an initial matter, Title IX is not limited to circumstances involving “discrimination”; it also applies where
a student is “excluded from participation in” or is “denied the benefits of ” an educational opportunity on the
basis of sex. 20 U.S.C. § 1681(a). The statute forbids a
federal-funding recipient from engaging in any of those
three activities, which are linked disjunctively (“or”).
And there can be little doubt that, because of her expulsion, Bose was “excluded from participation in” and “denied the benefits of ” an education at Rhodes.
But even when a student alleges that she was “subjected to discrimination,” the statute does not require
proof that the school itself harbored sex-based animus.
In Davis, for instance, this Court affirmed liability for a
school district that was deliberately indifferent to severe
sexual harassment inflicted on a student by her classmate. Although such “student-on-student harassment”
was a manifestation of the harasser’s bias, 526 U.S. at
639, there was no allegation that the school district or
any of its officials had a discriminatory mindset—or indeed any particular mental state, other than actual
knowledge of the misconduct.

21
Instead, the Court explained that the phrase “subjected to discrimination” merely requires a showing that
some school policy has “ ‘cause[d] students to undergo’
harassment or ‘ma[d]e them liable or vulnerable’ to it.”
Id. at 645 (quoting Random House Dictionary of the
English Language 1415 (1966) (brackets omitted)). In a
case of deliberate indifference, therefore, the plaintiff
would have to show that the school district’s failure to act
“ ‘expose[d]’ its students to harassment or ‘cause[d]’
them to undergo it.” Ibid. But she would not have to
prove that school officials themselves were biased.5
In this case, Rhodes College plainly “exposed” Bose
to discrimination, and rendered her “liable or vulnerable
to it,” by expelling her on the basis of Bea’s sex-based
charges and evidence. Indeed, Rhodes’s conduct here is
far more active and direct than the school district’s failure to act was in Davis. Bose was accordingly “on the
basis of sex . . . subjected to discrimination.” 20 U.S.C.
§ 1681(a).
II. The Decision Below Conflicts with Decisions from
Other Circuits

The Sixth Circuit’s ruling conflicts with decisions
from other courts of appeals, which have recognized that
Title IX applies where a federal-funding recipient gives
effect to a teacher’s discriminatory agenda. Had Bose’s
suit arisen in any of those circuits, her claim would have
survived summary judgment.
Requiring proof of a federal-funding recipient’s discriminatory
mindset would also foreclose most retaliation claims, because
school officials typically retaliate in order to avoid controversy or
liability, not out of sex-based animus. Indeed, in the very case confirming that Title IX forbids retaliation, Jackson v. Birmingham
Board of Education, 544 U.S. 167 (2005), the plaintiff was a male
physical education teacher who was penalized for complaining
“that the girls’ team was not receiving equal funding and equal access to athletic equipment and facilities.” Id. at 171.
5

22
The parallels with Papelino v. Albany College of
Pharmacy, 633 F.3d 81 (2d Cir. 2011), are uncanny.
Daniel Papelino faced the repeated “sexual advances” of
his medicinal chemistry professor, whom he rebuffed and
later reported to the associate dean. Id. at 86. Papelino
then immediately “noticed a change in [the professor’s]
behavior, as she started to act cold and unfriendly toward him.” Ibid. A month later, she accused him and
two classmates of cheating together on exams in various
courses, and as evidence presented “ ‘statistical’ charts
that she had prepared.” Id. at 86-87. The school’s Student
Honor Code Panel found them guilty, and the Appellate
Board declined to overturn the ruling. Id. at 87. All
three flunked their courses, and Papelino and one of the
others “were expelled.” Ibid.
The district court granted summary judgment for
the college on Papelino’s Title IX claim, finding an insufficient “causal relationship” between the professor’s sexbased conduct and the expulsion, but the Second Circuit
reversed. Id. at 92. It explained that Papelino “need only establish that impermissible retaliation was one motive behind the initiation of the Honor Code charges
against him,” rather than a motive for “any of the Panel
members . . . to find him guilty of cheating.” Id. at 93
(emphasis added). Indeed, the Second Circuit explained
that “even if the Panel members were themselves unaware that Papelino had engaged in protected activity”
(namely, his reporting of the professor’s misconduct), it
sufficed that “they were acting on [the professor’s] explicit encouragement.” Id. at 92-93. The Sixth Circuit
here acknowledged that its ruling conflicted with Papelino but simply “decline[d] to follow it.” Pet. App. 14a.6
The Sixth Circuit suggested that Papelino might rest on “a different theory” of causation, but it pointed (Pet. App. 14a-15a) only
to parts of the decision addressing knowledge, which played no
6

23
The Second Circuit relied on the same theory of causation in its widely cited decision in Doe v. Columbia
University, 831 F.3d 46 (2d Cir. 2016). There, a male
student (Doe) alleged that he was unjustly punished by
the university for sexual assault as a result of anti-male
bias. Doe alleged that numerous individuals involved in
the disciplinary process harbored such bias, including
the university’s “Title IX investigator (who influenced
the panel and the Dean by her report and recommendation).” Id. at 56. The university argued that because the
investigator “did not sit on the panel that found [Doe] responsible for sexual misconduct,” her bias could not support his Title IX claim. Id. at 58 (citation omitted). The
Second Circuit rejected that argument as “not persuasive. Although [the investigator] was not the decisionmaker, she allegedly had significant influence, perhaps
even determinative influence, over the University’s decision.” Ibid. Citing Staub, the court explained that an
educational institution violates Title IX where it takes
action based on the biased accusations of “an employee
endowed by the institution with supervisory authority or
institutional influence in recommending and thus influencing the adverse action by a non-biased decisionmaker.” Id. at 59.
Other courts of appeals have employed similar reasoning to reach results incompatible with the decision
below. The plaintiff in Gossett v. Oklahoma ex rel.
role in Papelino’s causation analysis, see 633 F.3d at 92-93. Nor
can the decisions be distinguished factually on the basis of the
schools’ knowledge: Bose gave Rhodes College precisely the same
warning about retaliation that Papelino gave his school. Compare
C.A. Rec. 1557 (“Both the Honor Council and the Faculty Appeals
Committee . . . were acutely aware that [Bose] believed Dr. Bea
had a retaliatory motive to accuse her of cheating.”), with 633 F.3d
at 92 (“[M]embers of the College faculty discussed Papelino’s allegations of sexual harassment during and after the Honor Code appeals process.”).

24
Board of Regents for Langston University, 245 F.3d
1172 (10th Cir. 2001), was a nursing student who alleged
that his instructors were biased against male students
and “as a result he was not given the same help, counseling, and opportunities to improve his performance as
provided to women nursing students.” Id. at 1176. The
plaintiff “ultimately received a D in the class, which under Nursing School policy required his dismissal from
the nursing program.” Ibid. To prove that his dismissal
resulted from his instructors’ sex bias, the plaintiff
pointed to a female nursing student whose instructor
permitted her an opportunity to improve her D through
“seven additional weeks of work,” which she used to pull
her grade up to a C (and thus avoid dismissal). Id. at
1177. The Tenth Circuit found the plaintiff ’s showing
sufficient to survive summary judgment—without requiring him to prove that the school itself, or any school
officials other than his instructors, were also biased. Ibid.
The plaintiff in Emeldi v. University of Oregon, 698
F.3d 715 (9th Cir. 2012), alleged that she had complained
about her dissertation chair’s anti-female bias to one of
his colleagues, and the chair retaliated by resigning as
her advisor, which forced her to drop out of her Ph.D.
program. Id. at 722-23. The Ninth Circuit determined
that the plaintiff had established a sufficient “causal
link” between the advisor’s “gender-based animus” and
the plaintiff ’s exclusion from the program. Id. at 726-27.
Chief Judge Kozinski and several others dissented from
denial of rehearing, faulting the panel for indulging in
“speculation” that the plaintiff ’s complaints to the colleague were in fact conveyed to the advisor. Id. at 719.
No judge, however, doubted that if the plaintiff could
show that her advisor had resigned for sex-based reasons, the university would be liable under Title IX for
forcing her to withdraw from the Ph.D. program.

25
Finally, the decision below conflicts with the reasoning of Theidon v. Harvard University, 948 F.3d 477 (1st
Cir. 2020). There, the plaintiff was allegedly denied tenure because of her department chair’s “increasingly negative feedback on [her] tenure case,” which was incorporated into a recommendation by the university’s ad hoc
committee, which was “forwarded to and reviewed by
Harvard’s president [Faust], who then render[ed] a final
decision.” Id. at 507, 485. Because the plaintiff alleged
gender bias on the part of her department chair—but
not the ad hoc committee or the president—the court
evaluated her Title IX claim under a “ ‘cat’s paw’ theory
of liability.” Id. at 507 (citing Staub). The court rejected
the plaintiff ’s claim, though not because of any doubts
about the theory. Instead, the court found insufficient
evidence of causation “on this record,” because the biased department chair was merely “one of many voices
in a chorus cautioning President Faust against promoting [her],” and so it “cannot be plausibly inferred that
the final decision to deny [her] tenure was tainted by retaliatory animus.” Id. at 508. But had the chair’s
presentation been the only basis for the school’s adverse
action, as Bea’s allegations were here, there is little
doubt that the First Circuit would have allowed the claim
to proceed.
III. This Case Warrants the Court’s Review

1. The decision below severely undermines Title IX
enforcement. Although it purported to ground its ruling
in Gebser—which solely addressed “[t]he scope of private damages relief,” 524 U.S. at 289—the Sixth Circuit
in fact construed the “element [of ] causation,” Pet. App.
9a, which determines whether a statutory violation has
occurred in the first place. As a result, the ruling below
will not only foreclose private plaintiffs from filing suit in
a case like this one, it will likely also limit the investigative and remedial authority of the U.S. Department of

26
Education. See 20 U.S.C. § 1682 (granting authority “to
effectuate” the prohibition in § 1681).
2. The need for Title IX’s protection in cases like
this one is acute. A recent study of the Association of
American Universities revealed that almost one in five
college students reported experiencing sexual harassment so severe that it “interfered with their academic or
professional performance, limited their ability to participate in an academic program[,] or created an intimidating, hostile or offensive social, academic or work environment.” David Cantor et al., Report on the AAU
Campus Climate Survey on Sexual Assault and Sexual
Misconduct at xiii (2020) (AAU Report) (quotation
marks omitted).7 Harassment by faculty is particularly
damaging to students, and has been linked to “decreased
academic identification,” “more negative perceptions
about how their professor viewed them,” and “lower selfesteem.” Alexandra Laird & Emily Pronin, Professors’
Romantic Advances Undermine Students’ Academic Interest, Confidence, and Identification, 83 Sex Roles 1
(2020). Yet many students refrain from reporting professor misconduct for fear of “retaliation” or other “negative academic, social, or professional consequences.”
AAU Report at A7-92.
When a student like Prianka Bose is brave enough
to rebuff or report an unwanted advance, she must be
confident that her harasser will not be able to use other,
putatively neutral university officials to retaliate against
her. Students are uniquely vulnerable to allegations of
rule breaking because the university has such broadranging authority to regulate their personal, educational,
and social interactions. And students face a large power
differential with faculty that makes it particularly easy
to weaponize charges of misconduct. The case law re7

https://bit.ly/3iynMAL.

27
flects that such retaliation is an all-too-common phenomenon. See, e.g., Irrera v. Humpherys, 859 F.3d 196, 198
(2d Cir. 2017) (professor gave student negative reference
in retaliation for declining his sexual advances); Videckis
v. Pepperdine Univ., 150 F. Supp. 3d 1151, 1155 (C.D.
Cal. 2015) (coach falsely accused student-athletes of
cheating in retaliation for discrimination complaint);
Abramova v. Albert Einstein Coll. of Med. of Yeshiva
Univ., No. 06-cv-116, 2006 WL 8445809, at *4 (S.D.N.Y.
July 26, 2006) (professor falsely accused student in retaliation for declining his sexual advances); see also supra
pp. 22, 24 (discussing Papelino and Emeldi).
3. In light of multi-layer disciplinary processes used
by modern educational institutions, the Sixth Circuit’s
decision also creates an obvious roadmap for avoiding
liability in even the most egregious cases of discriminatory treatment.
The petitioner in Staub, in seeking certiorari, explained that “where a potential dismissal is involved,
most major employers today utilize a personnel process
in which several different officials are involved in initiating the disciplinary process, providing information, offering recommendations, and making the formal, ultimate
decision.” Staub Pet. at 33 (No. 09-400). As a result, an
anti-discrimination test that looks only at the motives of
the ultimate decisionmaker “effectively legalizes unlawful action in all phases of such a decision-making process
except the very last stage.” Ibid.
The same is true for universities and colleges. When
students face serious discipline—up to and including expulsion—several different officials and layers of review
are often involved. Here, Bea initiated the process by filing charges against Bose; the student-led Honor Council
voted to expel her; and the Faculty Appeal Committee
found “sufficient evidence to reach the decision that [the]
Honor Council did.” C.A. Rec. 1019. This kind of multi-

28
layer process is typical, as the appellate decisions on the
other side of the circuit split illustrate. See, e.g., Doe,
831 F.3d at 51-52 (student accused of misconduct meets
with assistant director of student services, is interviewed
by Title IX investigator, receives hearing in front of disciplinary panel, and then appeals any punishment to
dean of students).
The Sixth Circuit’s ruling thus “has the unfortunate
potential to create a safe harbor for . . . discrimination by
any prejudiced supervisor who can fairly be described as
not being the final decisionmaker.” Staub Pet. at 34
(citation omitted). It accordingly offers a roadmap for
federal-funding recipients to insulate themselves from
Title IX liability: Create a layer of ostensibly neutral review to carry out the ultimate punishment, and biased
decisions come out clean on the other side. This
roadmap invites bad actors to retaliate with impunity,
and punishes students for standing up to harassment.
Both of Title IX’s principal objectives are undermined:
Students will be excluded from educational opportunities
“on the basis of sex”; and federal resources will be used
to support discriminatory practices.
4. This case is an ideal vehicle for resolution of the
question presented.
First, there is no dispute about the relevant facts.
In light of the summary judgment posture, the Sixth
Circuit accepted that Bea had accused Bose of cheating
in retaliation for declining his romantic advances, and
that his fabricated evidence was the sole cause of her expulsion by Rhodes. This clarity regarding cause and effect tees up the purely legal question whether a federalfunding recipient can ever violate Title IX by giving effect to a teacher’s discriminatory agenda.
Second, because Bose indisputably warned Rhodes
about Bea’s discriminatory agenda, there is no need to
decide whether or how Gebser’s actual notice require-

29
ment applies to a case like this. This Court “has not applied an actual knowledge requirement” outside the
deliberate-indifference context, and the Department of
Education recently expressed its view that “the actual
knowledge requirement . . . does not apply to a claim of
retaliation.” 85 Fed. Reg. at 30,537. But that issue need
not be resolved here, given the parties’ agreement that
“[b]oth the Honor Council and the Faculty Appeals
Committee . . . were acutely aware that [Bose] believed
Dr. Bea had a retaliatory motive to accuse her of cheating.” C.A. Rec. 1557.
Third, the question presented will be outcomedeterminative. As the Sixth Circuit noted, the only element of her Title IX claim that (in its view) Bose “cannot
make out [is] the fourth element—causation.” Pet. App.
9a. Rejecting the Sixth Circuit’s reasoning thus would
necessarily overturn the grant of summary judgment in
Rhodes’s favor.

30
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
ADAM W. HANSEN
ELEANOR E. FRISCH
APOLLO LAW LLC
333 Washington Ave., N.,
Suite 300
Minneapolis, MN 55401
(612) 927-2969
BRYCE ASHBY
DONATI LAW, PLLC
1545 Union Avenue
Memphis, TN 38104

ALLON KEDEM
Counsel of Record
ANDREW T. TUTT
JAYCE BORN
ARNOLD & PORTER
KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
allon.kedem@arnoldporter.com

ANYA A. HAVRILIAK
ARNOLD & PORTER
BRICE M. TIMMONS
KAYE SCHOLER LLP
BLACK MCLAREN JONES
RYLAND & GRIFFEE PC
1144 Fifteenth Street
530 Oak Court Dr., Ste. 360 Suite 3100
Memphis, TN 38117
Denver, CO 80202
(303) 863-1000

AUGUST 2020

APPENDIX

APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-5936
PRIANKA BOSE
v.
ROBERTO DE LA SALUD BEA; RHODES COLLEGE
Appeal from the United States District Court
for the Western District of Tennessee at Memphis
No. 2:16-cv-02308—John Thomas Fowlkes, Jr.,
District Judge
Argued May 9, 2019
Decided and Filed: January 28, 2020
Before: SILER, LARSON, and NALBANDIAN,
Circuit Judges.
COUNSEL
ARGUED: Adam W. Hansen, APOLLO LAW LLC,
Minneapolis, Minnesota, for Appellant. Lisa A. Krupicka,
BURCH, PORTER & JOHNSON, PLLC, Memphis,
Tennessee, for Appellees.
ON BRIEF: Adam W. Hansen, Eleanor E. Frisch,
APOLLO LAW LLC, Minneapolis, Minnesota, Bryce
Ashby, DONATI LAW, PLLC, Memphis, Tennessee, for
Appellant. Lisa A. Krupicka, Gary S. Peeples, Sarah E.
Smith, BURCH, PORTER & JOHNSON, PLLC, Memphis, Tennessee, for Appellees.
(1a)

2a

OPINION

LARSEN, Circuit Judge: Rhodes College expelled
Prianka Bose after her organic chemistry professor, Dr.
Roberto de la Salud Bea, accused her of cheating on tests
and quizzes. Bose says that Bea fabricated these charges
after she confronted Bea regarding inappropriate comments and questions Bea had posed to her. Bose brought
numerous claims against both Rhodes and Bea, including
a Title IX claim against Rhodes and a state law defamation claim against Bea. We agree with the district court
that Bose’s Title IX claim cannot succeed, but with respect to the defamation claim, we conclude that the district court erred by holding that Bea’s statements were
subject to absolute privilege under Tennessee law. Accordingly, we AFFIRM in part and REVERSE in part.
I.

We recite the facts in the light most favorable to Bose.
Rhodes College is a liberal arts institution in Memphis,
Tennessee that receives federal funds. In the fall of 2013,
Bose enrolled as a freshman at Rhodes. During her sophomore year, she was accepted into the early selection program for George Washington University’s medical school.
The program guaranteed Bose admission, without taking
the MCAT, if she met certain requirements, including
maintaining a 3.6 GPA and receiving at least a B- in required science courses.
In the spring semester of her sophomore year, Bose
successfully completed Bea’s course, Organic Chemistry
I. The following summer, Bea approached Bose in a parking lot on campus, where the two struck up a conversation.
After exchanging pleasantries, Bea began asking more

3a
personal questions: he asked Bose how she liked to spend
her evenings and free time, whether she spent time with
friends, and whether she spent time with her boyfriend.
As he asked her questions, Bea moved closer to Bose, who
eventually stepped backward to create space between
them. Bose, who had never mentioned having a boyfriend
to Bea, said she had to leave. Bea then asked her whether
she would like to have dinner and catch up. Bose later testified that she believed Bea was asking her out on a date,
which made her uncomfortable. Bose declined the dinner
invitation and left.
Bose took Bea’s Organic Chemistry II class the following fall semester as she had planned. Throughout the
term, Bea called Bose “pretty” or “beautiful” and would
compliment her clothing. During this same semester,
Bose took a corresponding lab course with a different professor. Bea regularly visited the lab, starting conversations with Bose and offering to help her; he did not give
the same attention to other students. Once, Bea called
Bose to his office after class and asked her whether she
would like to be his research assistant; Bose said she
would think about it. Bea then asked Bose if she liked to
party on campus. When Bose left, Bea followed her and
said he would walk her wherever she needed to go. Although Bose said that was not necessary, Bea walked her
out anyway.
Throughout the semester, Bea gave all of his students
the option to take tests and quizzes early. Bose often used
this option. She would arrive at Bea’s office around 7:30
or 7:45 a.m.; Bea would give her the test and leave shortly
before 8:00 a.m. to teach another class. When he left, Bea
would leave his laptop running without logging off, which
meant the laptop could be accessed without his password.
In early November 2015, Bose took a quiz in Bea’s office. Bose testified that Bea was in the office with her
nearly the entire time she took the quiz, leaving only

4a
momentarily to collect class evaluations. Bea testified that
when he returned to his office, he noticed that the answer
key was open on his laptop in a larger view or “zoom” level
than he typically uses. Bea explained that he then began
to suspect Bose was cheating.
On November 19, 2015, Bose was sitting with a friend
in the school cafeteria when Bea approached. Bea leaned
over Bose’s shoulder and asked sternly whether she was
texting her boyfriend. Bose did not answer; Bea smiled
and walked away. Later that same day, Bose and her
friend approached Bea. Bea seemed happy to see Bose,
but that changed when Bose confronted him, saying:
“[L]ook, Dr. Bea, I don’t know if you mean it this way, but
I feel really uncomfortable when you ask me questions
about my boyfriend, when you ask me anything about my
family, I don’t want personal questions, I want to keep our
relationship strictly professional.” Bea said nothing,
looked at the ground, and walked away.
An Organic Chemistry exam was scheduled for the
next day (Exam 3). Bose, who woke with a cough and fever, asked to take the exam in Bea’s office to avoid disturbing the other students. Bea printed out the exam and
tossed it on the desk without saying anything to Bose,
which was out of character for him. Bea also logged out of
his laptop before leaving the office.
When Bea returned, he found his office door shut,
which caused it to lock automatically, though the door was
usually left ajar when a student took a test in the office.
Bea used his key to open the door and found Bose standing beside his desk. Bose testified that she had risen to
open the door when she heard Bea trying to come in. Bea
asked Bose whether she needed scratch paper; she said
no, and Bea left. Distracted by maintenance noise near
Bea’s office, Bose finished the exam with the rest of the
class. Bose scored 74 points out of 100, approximately 20

5a
points lower than her score on any other quiz or test in
Organic Chemistry II, but Bea recorded her score as 47.
The next week, Bose attempted to ask Bea about
some practice problems before class began, but he refused
to respond to her; when he eventually acknowledged her,
he just shrugged his shoulders. Bose had regularly asked
for help with practice problems in the past, and Bea had
never refused to respond. Feeling uneasy with his
changed behavior, Bose went to Bea’s office after class;
but Bea was again unresponsive. Eventually, Bose broke
the silence by relaying her impression that Bea had
seemed disinterested in teaching or helping her since she
had spoken to him about the cafeteria incident. Bea still
said nothing, so Bose left.
Around this time, Bea told a colleague that he suspected a student of cheating. The colleague advised Bea
to create a fake answer key and stay logged in on his computer to see whether the student used it. Bea testified that
he took this advice, creating a document entitled “Answer
Key,” with credible, though incorrect, answers to an upcoming quiz (Quiz 5). Shortly thereafter, Bose took Quiz 5
in Bea’s office. Her answers matched the fake answer key
precisely. Later that day, Bea emailed several administrators and accused Bose of cheating and of changing her
grades in his grade roster. Bose would later deny these
claims, maintaining that Bea must have matched his “fake
answer key” to her actual answers, rather than the other
way around.
Rhodes College Proceedings. Student academic conduct at Rhodes is governed by an Honor Code, administered by students elected to serve on an Honor Council.
Two days after Bose took Quiz 5, the Honor Council president emailed Bose to tell her she was under investigation
for cheating “on multiple assignments in Organic Chemistry II.” After an investigation and hearing, the Honor
Council determined that Bose had violated the Honor

6a
Code. Among other things, the Honor Council “found
clear and convincing evidence that [Bose] had stolen answers, most convincingly on Quiz 5, from Dr. Bea’s computer and used them to cheat.” Because of the “nature and
severity” of the underlying offense, as well as what the
Council deemed Bose’s “egregious lies” during the hearing, the Honor Council voted to expel her.
Bose appealed her expulsion to the Faculty Appeals
Committee. The Appeals Committee upheld the Honor
Council’s finding but remanded for reconsideration of the
penalty, in light of new evidence in the form of tests and
quizzes that Bose had previously lost.1 On remand, the
Honor Council upheld Bose’s expulsion.
In February 2016, Bose filed an internal Title IX complaint alleging sexual harassment by Bea. A Title IX investigator determined that the allegations of sexual harassment could not be sustained.
The Lawsuit. In May 2016, Bose filed this lawsuit
against Rhodes and Bea. Against Rhodes she alleged,
among other claims, breach of contract for failing to investigate pursuant to Rhodes’ Title IX handbook, and retaliation in violation of Title IX, 20 U.S.C. §§ 1681–88.
Against Bea she alleged, among other claims, defamation
under Tennessee law for Bea’s statements that Bose had
violated the Honor Code.
Rhodes and Bea filed a motion to dismiss. Bea argued
that his accusations of cheating and the documentary evidence submitted to the Honor Council were made as part
of “quasi-judicial proceedings” and were therefore subject to an absolute privilege under Tennessee defamation
Bea had testified before the Honor Council that Bose had received
a 47 on Exam 3 (though Bose actually received a 74). Bose could not
dispute this, as she had lost the graded exam in an airport. Sometime
after the hearing, the person who had found her exam mailed it back
to her.
1

7a
law. The district court agreed and dismissed the defamation claim against Bea. But the district court allowed the
Title IX and breach of contract claims to proceed to discovery.
After discovery, Rhodes moved for summary judgment on the breach of contract and Title IX claims. The
court denied the motion on the breach of contract claim.
The court granted summary judgment to Rhodes on the
Title IX claim, however. Bose’s Title IX theory was that
Bea had reported her to the Honor Council in retaliation
for her opposing his advances. But Title IX does not provide for individual liability; only “a recipient of federal
funds may be liable in damages under Title IX” and “only
for its own misconduct.” Davis v. Monroe Cty. Bd. of
Educ., 526 U.S. 629, 640 (1999); see also Soper v. Hoben,
195 F.3d 845, 854 (6th Cir. 1999). Accordingly, Bose asked
the court to impute Bea’s retaliatory motive to Rhodes using a “cat’s paw” theory of causation, which links the discriminatory motive of one actor to the adverse action of
another.2 The district court declined to do so, reasoning
that the cat’s paw theory depends on principles of respondeat superior and constructive notice that do not apply to Title IX claims. Bose later voluntarily dismissed her
breach of contract claim with prejudice. She appeals only
the district court’s decisions dismissing her Title IX and
defamation claims.
II.

We first address the district court’s grant of summary judgment to Rhodes on Bose’s Title IX claim. We
review de novo, viewing the facts in the light most
According to the Supreme Court, “[t]he term ‘cat’s paw’ derives
from a fable conceived by Aesop. . . . In the fable, a monkey induces a
cat by flattery to extract roasting chestnuts from the fire. After the
cat has done so, burning its paws in the process, the monkey makes
off with the chestnuts and leaves the cat with nothing.” Staub v. Proctor Hosp., 562 U.S. 411, 415 n.1 (2011).
2

8a
favorable to the non-moving party. Hunt v. Sycamore
Cmty. Sch. Dist. Bd. of Educ., 542 F.3d 529, 532, 534 (6th
Cir. 2008).
A.

Title IX provides: “No person in the United States
shall, on the basis of sex, be excluded from participation
in, be denied the benefits of, or be subjected to discrimination under any education program or activity receiving
federal financial assistance.” 20 U.S.C. § 1681(a). Though
the statute contains no express private right of action, the
Supreme Court has held that individuals may sue funding
recipients for violating Title IX. See Cannon v. Univ. of
Chi., 441 U.S. 677, 717 (1979); Franklin v. Gwinnett Cty.
Pub. Schs., 503 U.S. 60, 76 (1992). And the Court has held
that this implied right of action includes retaliation claims,
explaining that “when a funding recipient retaliates
against a person because he complains of sex discrimination, this constitutes intentional ‘discrimination’ ‘on the
basis of sex,’ in violation of Title IX.” Jackson v. Birmingham Bd. of Educ., 544 U.S. 167, 174 (2005).
The Supreme Court’s decision in Jackson did not
spell out the elements of a Title IX retaliation claim, and
no published case in this circuit has decided the question.
In unpublished authority, however, we have analogized to
Title VII retaliation claims, stating that a Title IX plaintiff
must show “that (1) [s]he engaged in protected activity,
(2) [the funding recipient] knew of the protected activity,
(3) [s]he suffered an adverse school-related action, and (4)
a causal connection exists between the protected activity
and the adverse action.” Gordon v. Traverse City Area
Pub. Schs., 686 F. App’x 315, 320 (6th Cir. 2017). Our sister circuits apply similar tests. See, e.g., Emeldi v. Univ.
of Or., 698 F.3d 715, 724 (9th Cir. 2012); Papelino v. Albany Coll. of Pharmacy of Union Univ., 633 F.3d 81, 89
(2d Cir. 2011); Frazier v. Fairhaven Sch. Comm., 276 F.3d

9a
52, 67 (1st Cir. 2002). And the parties have litigated this
case under that framework, which we apply here.
In this case, Bose cannot make out the fourth element—causation. Bose’s theory is that after she opposed
Bea’s unwelcome attention by confronting him in the cafeteria and asking him to “keep things professional,”3 he
retaliated by taking her to the Honor Council on false allegations of cheating. But there is no individual liability
under Title IX, so Bose cannot use Title IX to sue Bea directly for his alleged retaliatory act. See Soper, 195 F.3d
at 854. Moreover, the “adverse school-related action” she
alleges is her expulsion, and Rhodes itself did that, not
Bea. Yet there is no evidence that Rhodes itself (or the
Honor Council or the Faculty Advisory Committee) harbored any discriminatory motive against Bose. To draw
the required connection between Bose’s opposition to
Bea’s unwelcome conduct and Rhodes’ act of expelling
her, Bose seeks to impute Bea’s retaliatory motive to
Rhodes using a cat’s paw theory.
We have explained the cat’s paw theory this way:
“[T]he term ‘cat’s-paw’ refers to ‘one used by another to accomplish his purposes.’ In the employment
discrimination context, ‘cat’s paw’ refers to a situation
in which a biased subordinate, who lacks
In the Title VII context, we have held that under that statute’s “opposition clause,” 42 U.S.C. § 2000e-3(a), an employee’s “demand that
a supervisor cease his/her harassing conduct constitutes protected activity covered by Title VII.” EEOC v. New Breed Logistics, 783 F.3d
1057, 1067 (6th Cir. 2015). Noting that “the language of the opposition
clause does not specify to whom protected activity must be directed,”
we rejected the suggestion that “communication directed solely to a
harassing supervisor does not constitute protected activity.” Id. at
1068 (noting disagreement with Frank v. Harris County, 118 F.
App’x 799, 804 (5th Cir. 2004)). The parties have not questioned
whether this view of protected activity also applies to claims brought
under Title IX, and we express no position on that question here.
3

10a
decisionmaking power, uses the formal decisionmaker as a dupe in a deliberate scheme to trigger
a discriminatory employment action.” EEOC v. BCI
Coca-Cola Bottling Co. of Los Angeles, 450 F.3d 476,
484 (10th Cir. 2006) (citations omitted). A plaintiff alleging liability under the cat’s paw theory seeks “to
hold his employer liable for the animus of a supervisor who was not charged with making the ultimate
employment decision.” Staub v. Proctor Hosp., 562
U.S. 411, 415 (2011).
Marshall v. The Rawlings Co., 854 F.3d 368, 377 (6th Cir.
2017) (alteration in original). This court has applied the
cat’s paw theory to a variety of claims, including a Family
Medical Leave Act discrimination claim, a Title VII race
discrimination claim, and an Age Discrimination in Employment Act claim. See id. (collecting cases). Our question today is whether the cat’s paw theory can apply in Title IX cases. We hold that it cannot.
Our conclusion follows from the Supreme Court’s decision in Gebser v. Lago Vista Independent School District, 524 U.S. 274 (1998). In Gebser, the Court considered
whether a school district could be held liable under Title
IX for failing to stop a teacher’s sexual harassment of a
high school student. Id. at 277. Though the school had
been unaware of the harassment, Gebser argued that Title IX imposed liability on the school under either a respondeat superior or constructive notice theory. Id. at
282. The Court disagreed, concluding that Title IX imposed liability only for a funding recipient’s “own official
decision[s]” and not “for its employees’ independent actions.” Id. at 290–91. Accordingly, the Court held, “a damages remedy will not lie under Title IX unless an official
who at a minimum has the authority to address the alleged
discrimination and to institute corrective measures on the
recipient’s behalf has actual knowledge of discrimination”
and responds with “deliberate indifference.” Id. at 290.

11a
The Court gave several reasons for its holding. First,
it noted that while “agency principles guide the liability
inquiry under Title VII,” that conclusion derives from Title VII’s text, which “explicitly defines” a liable “‘employer’ to include ‘any agent.’” Id. at 283 (quoting 42
U.S.C. § 2000e(b)). By contrast, “Title IX contains no comparable reference to an educational institution’s ‘agents,’
and so does not expressly call for application of agency
principles.” Id. Moreover, the Court concluded, “[I]t
would frustrate the purposes of Title IX to permit a damages recovery against a school district . . . based on principles of respondeat superior or constructive notice.” Id.
at 285 (emphasis and quotation marks omitted).
The Court noted that, under Title IX’s express means
of enforcement, through administrative action, “an
agency may not initiate enforcement proceedings until it
‘has advised the appropriate person or persons of the failure to comply with the requirement and has determined
that compliance cannot be secured by voluntary means.’”
Id. at 288 (quoting 20 U.S.C. § 1682). The Court concluded
that “[i]t would be unsound . . . for a statute’s express system of enforcement to require notice to the recipient and
an opportunity to come into voluntary compliance while a
judicially implied system of enforcement permits substantial liability without regard to the recipient’s knowledge
or its corrective actions upon receiving notice.” Id. at 289.
“Congress,” the Court held, “did not envision a recipient’s
liability in damages in that situation.” Id. at 287–88.
Cases since Gebser have reinforced its message: a
“recipient of federal funds may be liable in damages under
Title IX only for its own misconduct.” Davis, 526 U.S. at
640. Accordingly, it is inappropriate to use “agency principles to impute liability to [a school] for the misconduct
of its teachers,” id. at 642; liability instead requires that
the institution itself be “deliberately indifferent to known
acts of . . . discrimination,” id. at 643. See also Jackson,

12a
544 U.S. at 181 (“Title IX’s enforcement scheme also depends on individual reporting because individuals and
agencies may not bring suit under the statute unless the
recipient has received ‘actual notice’ of the discrimination.” (quoting Gebser, 524 U.S. at 288)). Cat’s paw liability, therefore, has no place in Title IX actions.
Under a cat’s paw theory, the decisionmaker need not
have notice of the subordinate’s discriminatory purpose.
The cat’s paw theory, rather, imputes knowledge and discriminatory intent—the cat’s paw is the “unwitting tool”
of those with the retaliatory motive. Seoane-Vazquez v.
Ohio State Univ., 577 F. App’x 418, 427 (6th Cir. 2014); see
also Henderson v. Chrysler Grp., LLC, 610 F. App’x 488,
496 (6th Cir. 2015); Shazor v. Prof. Transit Mgmt., Ltd.,
744 F.3d 948, 955–56 (6th Cir. 2014) (explaining that a
cat’s paw theory requires proof only that the subordinates
intended to cause the discriminatory employment action
and that those actions proximately caused the ultimate action). Indeed, we have referred to cat’s paw as an application of “agency principles,” Marshall, 854 F.3d at 378; see
also Volz v. Erie County, 617 F. App’x 417, 423 (6th Cir.
2015), and have even called it the “rubber-stamp” theory.
Bishop v. Ohio Dep’t of Rehab. and Corr., 529 F. App’x
685, 696 (6th Cir. 2013); see also Goodsite v. Norfolk S. Ry.
Co., 573 F. App’x 572, 586 (6th Cir. 2014). Cat’s paw liability does not require either actual notice to the funding recipient or any “official decision” by it; to hold a cat’s paw
theory applicable to Title IX claims then would be inconsistent with the Supreme Court’s decisions in Gebser, Davis, and Jackson. See also M.D. ex rel. Deweese v. Bowling
Green Ind. Sch. Dist., 709 F. App’x 775, 779 (6th Cir. 2017)
(recognizing that a plaintiff raising a Title IX retaliation
claim cannot use agency principles to impute liability to a
funding recipient for the misconduct of its employees).
Bose suggests that the cat’s paw theory does not require the application of respondeat superior principles.

13a
Rather, says Bose, “the cat’s paw theory is a doctrine of
causation; it simply draws a causal link between the discriminatory animus of one individual and the adverse action of another.” According to Bose, cat’s paw does not impute liability; it is merely a “conduit theory.” See Christian v. Wal-Mart Stores, Inc., 252 F.3d 862, 878 (6th Cir.
2001). We fail to see the distinction. The Supreme Court
in Gebser held that an educational institution is responsible under Title IX only for its “own official decision[s].”
524 U.S. at 290–91. Bose argues that she seeks to hold
Rhodes liable for its own decision—expelling her. But that
decision only violated Title IX if it was made “on the basis
of sex”—that is, if the decision was taken for a discriminatory reason. Bose has no evidence of any discriminatory
motive on Rhodes’ part; she, therefore, asks us to hold
Rhodes responsible for Bea’s retaliatory animus. But that
would be to hold Rhodes liable “for its employees’ independent actions”—precisely what Gebser forbids.4
Bose asks us to follow the Second Circuit’s decision in
Papelino v. Albany College of Pharmacy of Union University, 633 F.3d 81 (2d Cir. 2011), which she reads as
Bose argues that this court has permitted liability under a cat’s paw
theory for claims brought under 42 U.S.C. § 1983, despite the fact that
respondeat superior liability does not apply to such claims. Although
Bose offers two cases in support, neither case held, in a binding, considered opinion, that the cat’s paw theory applies to § 1983 claims. In
DeNoma v. Hamilton County Court of Common Pleas, 626 F. App’x
101 (6th Cir. 2015), a panel of this court applied a cat’s paw theory to
the plaintiff’s § 1983 claim. The opinion, however, is unpublished, and
it does not appear that the court had occasion to consider whether a
cat’s paw theory was appropriate for § 1983 claims, given that the
lower court and the parties had proceeded as if it were. See id. at 105.
Likewise, in Arendale v. City of Memphis, 519 F.3d 587 (6th Cir.
2008), this court seemed to assume the applicability of the cat’s paw
theory to § 1983 claims. See id. at 604 n.13. But the court resolved the
case on other grounds—that the plaintiff “has not demonstrated that
he was treated differently than similarly situated non-white employees.” Id. at 604.
4

14a
applying a cat’s paw theory to a Title IX retaliation claim.
There, a college’s Honor Code Panel expelled Papelino after concluding that he had cheated on an exam. Id. at 87.
Papelino claimed that a professor had initiated the Honor
Code proceedings in retaliation for his having reported
the professor’s sexual harassment to the College’s Associate Dean for Student Affairs, Albert White. Papelino
brought a Title IX retaliation suit against the College. Id.
at 88. The Second Circuit allowed the retaliation claim to
proceed to trial. Id. at 92.
Some aspects of the Second Circuit’s decision can indeed be read as invoking a cat’s paw theory, though the
court never uses the term. The court concluded, for example, that, “even if the [Honor Code] Panel members were
themselves unaware that Papelino had engaged in protected activity,” a reasonable jury could find that “they
were acting on [the professor’s] explicit encouragement,
or that they acted without information that White should
have imparted to them.” Id. at 92–93. Read this way, the
Second Circuit may have seen the Honor Code Panel as
the cat’s paw, unwittingly manipulated by the retaliatory
animus of either the professor or Dean White, or both. To
the extent Papelino embraces the cat’s paw theory of causation for Title IX claims, we find it inconsistent with
Gebser, Davis, and Jackson and decline to follow it.
Yet other aspects of Papelino suggest a different theory of Title IX liability—that the College was on notice of,
and was deliberately indifferent to, the professor’s retaliation. There, the student had reported his professor’s sexual harassment to Dean White.5 The court considered this
The court, in another part of the opinion, expressed its view that
reporting to the Dean satisfied Gebser’s requirement that notice be
given to an “appropriate person”—“a school official with ‘authority to
address the alleged discrimination and to institute corrective
measures.’” Papelino, 633 F.3d at 89; see also id. (finding that Papelino’s complaint to Dean White put the College on “actual notice” of
5

15a
act of reporting to be both the “protected activity,” and
evidence that the College knew that Papelino had engaged in protected activity. Id. at 92. There was also evidence that the Dean had informed the professor of Papelino’s complaint against her and that the Dean knew that
the professor had initiated the Honor Code proceedings
against Papelino shortly after she learned of Papelino’s
complaint. Yet despite the fact that Dean White was “a
high-ranking member of the College’s administration who
was ‘responsible for the administration of the Student
Code,’” id. at 89, he “did nothing even after the cheating
charges were lodged against Papelino,” id. at 92; see also
id. at 93 (suggesting that Dean White—perhaps because
of his supervisory role with respect to the Honor Code—
had a duty to “impart[]” his knowledge of the professor’s
retaliatory act to the Honor Code panel). Read this way,
it was the College’s own behavior—its deliberate indifference to the professor’s known retaliatory act—that subjected the College to Title IX liability in Papelino.
In her reply brief on appeal, Bose attempts to raise a
similar theory: that Rhodes had actual notice of Bea’s retaliation against her for opposing his unwanted advances
but was deliberately indifferent to it. According to Bose,
she told the Honor Council in her closing statement about
possible retaliation by Bea and repeated her claim to the
Faculty Appeals Committee and the Title IX investigator;
yet none took any action. But if she ever previously presented such a theory of Title IX liability in this litigation,
she has since abandoned it.
In its motion for summary judgment, Rhodes asked
the district court to dismiss Bose’s Title IX claim in full.
In response, Bose raised the cat’s paw theory of liability
the harassment because “White was a high-ranking member of the
College’s administration who was ‘responsible for the administration
of the Student Code’”).

16a
but made no mention of any deliberate indifference by
Rhodes to Bea’s retaliation. In its reply, Rhodes stated
that Bose had abandoned any deliberate indifference
claim she might have pled. The district court’s order dismissing Bose’s Title IX claim in full did discuss, and dismiss, Bose’s claim that Rhodes had been deliberately indifferent to Bea’s sexual harassment; Bose did not appeal
that decision. The district court did not, however, discuss
any theory whereby Rhodes would be liable for its own
deliberate indifference to Bea’s retaliation. With respect
to the retaliation claim, the district court discussed the
cat’s paw theory, which it rejected.6 If Bose believed she
had an outstanding theory of Title IX liability that the district court had failed to consider, then would have been
the time to raise it, given that the district court had just
dismissed her Title IX claim in full. Yet, Bose did not file
a motion for reconsideration, alerting the district court
that it had failed to consider an alternate theory of liability. Nor did she make any mention of a deliberate-indifference-to-retaliation theory in her opening brief in this
court; her opening brief advanced only the cat’s paw theory. Only after Rhodes again noted, in its responsive brief
on appeal, that Bose had “forfeited” any deliberate indifference claim did Bose make any attempt to develop the
theory that Rhodes should be held liable for its own deliberate indifference to Bea’s retaliation. That was too late.
And even then, at oral argument, Bose’s counsel seemed
to retreat, arguing that the cat’s paw theory is “the only
theory of causation there could be in this case.” We conclude, therefore, that Bose has forfeited any argument
that Rhodes had actual notice of Bea’s retaliation but was
The district court also rejected Bose’s argument that the court was
bound by its causation ruling at the preliminary injunction stage, correctly noting that “the findings of a district court in the context of a
preliminary injunction do not bind th[e] court in subsequent proceedings.
6

17a
deliberately indifferent to it. See Am. Trim, LLC v Oracle
Corp., 383 F.3d 462, 477 (6th Cir. 2004) (“This argument
was raised for the first time in [appellant’s] reply brief,
and this court has consistently held that we will not consider such arguments.”); Coach Servs., Inc. v. Source II,
Inc., 728 F. App’x 416, 417–18 (6th Cir. 2018) (finding that
the defendants forfeited arguments where they failed to
raise them both in response to a motion for summary
judgment and in their motion for reconsideration of the
district court’s summary judgment ruling).
We do not speculate whether the outcome would have
been different had Bose pursued a theory that Rhodes
was deliberately indifferent to Bea’s known retaliation.
But had Bose pursued such a theory in the district court,
we imagine that a number of questions would have been
joined. For example: was the Honor Council, the Faculty
Advisory Committee, or the Title IX investigator an “appropriate person” to notify, within the meaning of Title
IX? See Gebser, 524 U.S. at 289. Assuming so, did Bose
adequately inform those entities of the alleged retaliation? And, if so, was Rhodes’ response “clearly unreasonable” in light of what Rhodes knew? Williams ex rel Hart
v. Paint Valley Local Sch. Dist., 400 F.3d 360, 367–68 (6th
Cir. 2005). And, for that matter, is deliberate indifference
to retaliation even actionable under Title IX? See M.D. ex
rel. Deweese, 709 F. App’x at 779 (“M.D. has failed to cite
any authority applying the . . . deliberate indifference
framework to a Title IX retaliation claim.”); but see Feminist Majority Found. v. Hurley, 911 F.3d 674, 695 (4th
Cir. 2018) (“[W]e are satisfied that an educational institution can be liable for acting with deliberate indifference
toward known instances of student-on-student retaliatory
harassment.”). Bose’s failure to advance a deliberate-indifference-to-retaliation theory below deprives us of the
ability to review these questions on appeal.

18a
Throughout this litigation, Bose chose to argue that
the cat’s paw theory applies to Title IX claims. We conclude that it does not. The cat’s paw theory, which imputes
the discriminatory animus of another to the funding recipient, is inconsistent with Title IX principles requiring that
a funding recipient be held liable “only for its own misconduct.” Davis, 526 U.S. at 640. As a result, we affirm the
district court’s order granting summary judgment to
Rhodes on the Title IX claim.
III.

We next turn to the district court’s dismissal of Bose’s
defamation claim for failure to state a claim. We review
such decisions de novo, accepting all factual allegations as
true and construing the complaint in the light most favorable to the plaintiff. Stein v. Regions Morgan Keegan Select High Income Fund, Inc., 821 F.3d 780, 785 (6th Cir.
2016).
The district court granted Bea’s Rule 12(b)(6) motion
on the ground that Bea’s statements were absolutely privileged under Tennessee defamation law because they
were made in a quasi-judicial proceeding. We cannot
agree. Tennessee does recognize an absolute privilege for
statements made in quasi-judicial proceedings. See Lambdin Funeral Serv. Inc. v. Griffith, 559 S.W.2d 791, 792
(Tenn. 1978); Logan’s Super Mkts., Inc. v. McCalla, 343
S.W.2d 892, 894–95 (Tenn. 1961). But the Tennessee cases
have applied this privilege only to statements made before
public bodies. In Evans v. Nashville Banner Public Co.,
for example, the court clarified that Tennessee had expanded the quasi-judicial absolute privilege to “proceedings conducted by state departments and agencies.” No.
87-164-II, 1988 WL 105718, at *3 (Tenn. Ct. App. Oct. 12,
1988) (emphasis added). And in Jones v. Trice, the Tennessee Supreme Court approvingly cited the English rule,
which specified that the absolute privilege is “limited to

19a
legislative and judicial proceedings and other acts of
state.” 360 S.W.2d 48, 51 (Tenn. 1962) (emphasis added).
The rationale underlying the Tennessee decisions
supports limiting this privilege to statements made to
public entities. Time and again, the Tennessee courts have
emphasized that a benefit to the public is what drives the
privilege. In Independent Life Insurance Co. v. Rodgers,
55 S.W.2d 767 (Tenn. 1933), the Tennessee Supreme
Court concluded that statements made in a letter to the
state insurance commissioner were absolutely privileged
as part of a quasi-judicial license revocation proceeding.
Id. at 768. According to the Court, the insurance commissioner had been clothed by statute “with attributes similar
to those of a court”; the statute had thereby made “of him
a court to determine this matter of revocation.” Id. at 769.
The Court recognized that “absolute privilege . . . has been
extended to many inquiries that are not conducted before
courts of justice or courts of record,” including “to statements made in a court martial; to statements made in an
extradition proceeding before the Governor; to proceedings before the interstate commerce commission; to affidavits for a search warrant made before a justice of the
peace; to preliminary statements of a witness made to
counsel before trial; and . . . to statements made upon the
hearing of applications for pardon to the Governor.” Id.
(internal citations omitted). Common to all these proceedings is that they were public.
In Lambdin, the Tennessee Supreme Court extended
an absolute privilege to statements made to the Tennessee Board of Funeral Directors and Embalmers, which
concerned “the occupation for which [the plaintiffs] had
been licensed by the Board.” 559 S.W.2d at 792. As in
Rodgers, the Court in Lambdin emphasized that the basis
of this privilege was public need. Id. And in Evans, the
Tennessee Court of Appeals emphasized the benefit of
free dialogue in statements before zoning boards. 1988

20a
WL 105718 at *4. The court explained that “[t]he policy
underlying the privilege is to encourage the public to
speak freely at public, governmental hearings,” as “[l]ocal
boards of zoning appeals take actions which affect not only
homes and neighborhoods but also the quality of people’s
lives” and “[w]hen these boards hold hearings, all interested persons should feel free to express their views without fear of a recriminating lawsuit.” Id.
A common theme emerges from the cases in which
Tennessee has recognized an absolute privilege—a strong
benefit to the public, often tied to a statute or to powers
which the Tennessee legislature had specifically granted
to the tribunal at issue. See id.; see also Rodgers, 55
S.W.2d at 770 (“The design of [the statute at issue] will be
obstructed if those instituting or participating in proceedings to bring about the revocation of the license of an unworthy agent may be subjected by reason of their statements to a suit for libel or a suit for slander.”); Logan’s
Super Mkts., Inc., 343 S.W.2d at 894 (“The privilege belongs to the public, not to the individual, and the public
should not stand to lose the benefit it derives . . . .”).
Bea cannot point to a similar public benefit to Rhodes’
disciplinary proceedings. While Bea claims that the public
has an interest in a college’s academic misconduct proceedings, and that private colleges have an interest in encouraging faculty members and students to report allegations of academic misconduct, whether a student is disciplined by a private college does not affect the citizens of
the state in the same fashion as, for example, revoking a
business’s publicly conferred license, passing zoning laws,
or drafting legislation in response to public testimony.
Bea discusses at length the procedural safeguards required in an Honor Council proceeding, but we see nothing in the Tennessee cases that would suggest that procedural safeguards alone are enough to cloak participants in
a private proceeding with an absolute privilege under

21a
Tennessee law. Bea refers us to Brundage v. Cumberland
County, 357 S.W.3d 361, 370 (Tenn. 2011), in which the
Tennessee Supreme Court declared that “[t]he application of pre-defined standards, the requirement of a hearing, and the requirement of a record are earmarks of
quasi-judicial proceedings.” But the proceedings at issue
in Brundage were plainly public—“a local legislative
body’s land use decision.” Id. at 363. Moreover, the question in Brundage had nothing to do with whether an absolute privilege applied to statements made in such proceedings. Brundage instead concerned the standards for seeking judicial review of such decisions under a particular
Tennessee statute. Id. at 371. Along the way, the Court
noted that the proceedings at issue were a “hybrid” between “essentially ‘legislative’” and “‘quasi-judicial’ decisions,” and discussed the characteristics of each. Id. at
370. But as the question there concerned the procedures
for obtaining judicial review of plainly public proceedings,
and did not concern the availability of an absolute privilege in any kind of proceeding, we cannot find in Brundage any indication that Tennessee would extend its absolute privilege beyond the realm of public proceedings
where it has previously resided.
Finally, Bea notes that in Myers v. Pickering Firm,
Inc., 959 S.W.2d 152, 161 (Tenn. Ct. App. 1997), the Tennessee Court of Appeals said that “our Supreme Court
[has] strongly endorsed a liberal application of the absolute privilege accorded to publication of defamatory matters in connection with judicial proceedings.” But the key
word there is “judicial.” In Myers, the court discussed
whether an expert report made “in anticipation of” the defendant’s role as an expert witness in state court litigation
was absolutely privileged. Id. The court repeated the policy underlying absolute privilege for statements made in
a judicial proceeding:

22a
Underlying this general doctrine of absolute immunity from liability in libel and slander for statements made in the course of a judicial proceeding
is a policy decision by the courts that access to the
judicial process, freedom to institute an action, or
defend, or participate therein without fear of the
burden of being sued for defamation is so vital and
necessary to the integrity of our judicial system
that it must be made paramount to the right of an
individual to a legal remedy where he has been
wronged thereby.
Id. (quoting Jones, 360 S.W.2d at 51). Thus, “liberal
application” means only that courts should liberally apply
the absolute privilege when a statement is connected to a
judicial or quasi-judicial proceeding, not that courts
should be generous in deciding what proceedings fit that
definition.
To our knowledge, Tennessee has never cloaked defamatory statements made to private entities with an absolute privilege, and we see in the Tennessee cases no indication that its rationale for maintaining the privilege
would compel an extension. Of course, the Tennessee legislature or the Tennessee courts might, in the future,
choose another path. But “[o]ur respect for the role of the
state courts as the principal expositors of state law counsels restraint by the federal court in announcing new
state-law principles.” Angelotta v. Am. Broad. Corp., 820
F.2d 806, 809 (6th Cir. 1987). We conclude that Bea has
failed to show that Tennessee would provide absolute immunity to statements made in Rhodes’ Honor Council
proceedings.7Accordingly, we reverse the district court’s
Bea argues, for the first time on appeal, that Bose’s defamation claim
fails because she cannot show publication, an element of defamation
under Tennessee law. But because the defamation claim was dismissed at the Rule 12(b)(6) stage, it was never subject to discovery.
Counsel for Bea admitted at argument that publication is a fact7

23a
decision dismissing Bose’s defamation claim on this
ground.
***

We AFFIRM the district court’s grant of summary
judgment as to Bose’s Title IX claim but REVERSE and
REMAND regarding Bose’s defamation claim.

specific issue, and there has been little factual development of this
claim. We decline to address this issue for the first time on appeal

24a
APPENDIX B

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TENNESSEE
WESTERN DIVISION
PRIANKA BOSE,
Plaintiff,
v.
ROBERTO DE LA SALUD BEA
and RHODES COLLEGE,
Defendants.

)
)
)
) Case No. 2:16)
CV-02308)
JTF-tmp
)
)
)
)
)

ORDER GRANTING IN PART AND DENYING IN PART
DEFENDANTS’ MOTION FOR SUMMARY JUDGMENT

Before the Court is Defendants’ Motion for Summary
Judgment. Defendants Roberto De La Salud Bea and
Rhodes College filed their Motion for Summary
Judgment on December 1, 2017. (ECF Nos. 115 & 116.)
Plaintiff Prianka Bose filed her Response in opposition to
Defendants’ Motion on January 4, 2018, to which
Defendants submitted their Reply Brief on January 18,
2018. (ECF Nos. 60 & 67.) For the following reasons, the
Court finds that Defendants’ Motion for Summary
Judgment should be GRANTED IN PART AND
DENIED IN PART.
FACTUAL BACKGROUND
This case arises out of allegations lodged between a
student and teacher of a private university and the events
initiated in response to those allegations. Plaintiff Prianka

25a
Bose is an adult presently residing in DeKalb County,
Georgia. (ECF No. 1, 1:1.) Defendant Rhodes College is a
Tennessee Public Benefit Corporation with its principal
place of business in Memphis, Tennessee. (Id. at 1:3.)
Defendant Roberto De La Salud Bea is an adult resident
of Shelby County, Tennessee, who worked for Defendant
Rhodes at the time of the events giving rise to this action.
(ECF No. 1, 1:3–4.)
Plaintiff was a student at Rhodes College from the
2013 Fall Semester until the end of the 2015 Fall
Semester. (ECF No. 120, 1:1–2.) In her sophomore year,
Plaintiff applied for and was accepted into the Rhodes
College George Washington University Early Selection
Program (“GW Program”). (Id. at 2:4.) Students selected
to the GW Program are offered a contract with George
Washington University, that, upon their satisfaction of it
terms, allows them to gain automatic admission to its
medical school without taking the Medical College
Admission Test. (Id. at 2:5.) The requirements include
maintaining a 3.6 grade point average throughout their
matriculation at Rhodes, achieving grades in the required
science courses of not less than a B minus, and reporting
any allegations of substantiated academic misconduct
that arise while they attend Rhodes. (Id. at 2:6.)
According to the parties, the GW Program is governed by
two contracts—a 2012 Agreement and a 2012
Memorandum of Understanding (“2012 MOU”). (Id. at
2:7.) Under the 2012 Agreement, Defendant Rhodes is
responsible for reviewing student materials relating to
the above terms and submitting them to the George
Washington University School of Medicine & Health
Sciences (“GWSMHS”) Committee for additional review.
(ECF No. 44, 128:18–25; ECF No. 116-4, 46.)
In the 2015 Spring Semester, Plaintiff took Organic
Chemistry I, taught by Defendant Bea. (ECF No. 120,
3:8.) A couple of weeks after starting the course, Plaintiff

26a
was involved in a car accident that resulted in a concussion
protocol being established for her by Rhodes. (Id. at 3:9.)
The protocol gave her extra time to take tests and quizzes
outside of her regular classroom. (Id.) At the end of the
semester, Plaintiff earned an A minus in Organic
Chemistry I and had a cumulative GPA of 3.71. (Id. at 3:8.)
In the 2015 Fall Semester, Plaintiff took Organic
Chemistry II, which included a lecture and laboratory
component. (ECF No. 120, 3:10.) Defendant Bea taught
only the lecture component. (Id. at 3:10.) By this time,
Plaintiff was no longer on a concussion protocol. (Id. at
4:11.) Nonetheless, Plaintiff arranged with Defendant
Bea to take some tests and quizzes in his office at a time
and/or on a date earlier than the class. (Id. at 4:11.)
Of primary relevance here is Quiz 5. (Id. at 4:14–5:14.)
Plaintiff took Quiz 5 two days early, on December 2, 2015,
in Defendant Bea’s office. (Id. at 6:22.) At 11:03 a.m. of the
same day, Defendant Bea sent an email to two Associate
Deans of Students of Rhodes College, stating that he
suspected Plaintiff of cheating. (Id. at 7:24–8:24.)
Specifically, he alleged that he drafted a fake answer key
to Quiz 5 and made it accessible to Plaintiff through his
office computer while she took the Quiz. (Id. at 7:23.) He
further stated that when he checked Plaintiff’s answers,
he found that she submitted the same fake answers he
prepared. (Id.) One of the Deans replied within the hour,
stating the need for the Rhodes College Honor Council
(“HC”) to address the issue and that he could make that
happen. (Id. at 7:24–8:24.)
The HC is composed entirely of students elected by
their peers. (Id. at 8:25.) Rhodes provides training to the
HC members at the beginning of each academic year. (Id.
at 8:25.) On December 4, 2015, Plaintiff received an email
from President of the HC, Regan Adolph, informing her
that she was under investigation for cheating on multiple
assignments in Organic Chemistry II. (Id. at 8:26.) On the

27a
same date, Plaintiff also received an email from Mitchell
Trychta, the HC member assigned to investigate the
allegations against Plaintiff, asking to set up a time to
interview her. (Id. at 8:27.) Plaintiff met with Mr. Trychta
on three occasions late in 2015—December 7, December
10, and December 13. (Id. at 8:28.)
A day after their first meeting, Mr. Trychta sent
Plaintiff a statement summarizing the results of the
interview, for review and correction, which Plaintiff
verified as correct. (ECF No. 120, at 9:29–30.) After the
second and third interviews, Plaintiff approved an
addendum to her statement in which she was asked about
Quiz 5, shown the false answer key she is alleged to have
copied from, and is given an opportunity to explain her
answers on Quiz 5 in detail. (Id. at 9:31.) Although Plaintiff
told Mr. Trychta that the allegations did not make sense
to her, she did not tell him that Defendant Bea made
inappropriate remarks to her or otherwise suggest that
he had an ulterior motive for accusing her of cheating. (Id.
at 9:32.)
On December 14, 2015, prior to the HC hearing, Ms.
Adolph emailed Plaintiff a hearing packet containing the
following documents: Defendant Bea’s statement and
addendum to his statement; Plaintiff’s statement and
addendum to her statement; Quiz 5; Quiz 5 notes; the false
answer key; the correct answer key, Defendant Bea’s
handwritten grade roster; Defendant Bea’s electronic
grade roster; a screen shot of Defendant Bea’s computer
desk top; and Defendant Bea’s course syllabus for
Organic Chemistry II. (Id. at 10:33.) The HC hearing was
held on December 17, 2015, and lasted approximately five
hours. (Id. at 10:34.) At the hearing, Plaintiff called the
following witnesses: Chelsea Dezfuli (a classmate);
Matthew Chapman (represented to the HC by Plaintiff as
her chemistry tutor without disclosing that he was also
her boyfriend); Vinay Bose (her father); and two

28a
chemistry professors found through an online chemistry
tutoring service. (Id. at 11:35.)
All of the witnesses Plaintiff called at the HC hearing
were there to address the issue of how Plaintiff could have
arrived at the answers to Quiz 5 without cheating. (Id. at
12:36.) None were aware that there was a fake answer key
until the hearing. (Id. at 12:36.) During her closing
argument, Plaintiff made the following statement:
I have a witness for a specific incident in the Rat
where Dr. Bea came up to me and looked at my phone,
which is a very personal item, and says, oh, is that
your boyfriend, and proceeded to ask me a question
about my boyfriend and then he just walked away . . .
. Right after this incident happened, I walked up to
Dr. Bea and I told him, I feel uncomfortable with you
asking questions about my boyfriend. Please, let’s not
talk about any personal stuff anymore. And then he
got angry and walked away . . . . This is not the first
time that an ego-hurt professor would harm a
student. And there are many instances in—at other
colleges where something like this has happened.
(ECF No. 116-3, 96.)
After Plaintiff finished her closing remarks, Ms.
Adolph concluded the hearing and asked Plaintiff and
Defendant Bea to follow her outside. (See ECF No. 120,
12:37.) At that time, Plaintiff asked Ms. Adolph if she
could recall Ms. Dezfuli. (Id. at 12:38.) She was prevented
from doing so, however, because it was too late in the
proceeding. (ECF No. 40, 87:11–88:10; ECF No. 116-2,
67.)
Ultimately, the HC found Plaintiff in violation of the
Honor Code with respect to cheating and stealing and
imposed the penalty of expulsion. (ECF No. 120, 12:39.)
Plaintiff decided to appeal the HC’s decision to the
Faculty Appeals Committee (“FAC”). (Id. at 12:38.) An

29a
appeal packet, which included the HC’s written response
to Plaintiff’s allegations, was provided to both Plaintiff
and the FAC. (Id. at 14:41.) In early January 2016, prior
to Plaintiff’s FAC hearing, Plaintiff and her parents met
with Ms. Shapiro, Rhodes College’s Title IX Coordinator,
to talk about Plaintiff’s allegations against Defendant
Bea. (Id. at 15:47.) Ms. Shapiro instructed Plaintiff to fill
out a Title IX complaint form online. (Id. at 15:48.)
On January 16, 2016, before filing a Title IX
complaint form, Plaintiff, through her counsel, submitted
an appeal statement for consideration by the FAC. (Id. at
12:39.) This submission described Plaintiff’s sexual
harassment allegations against Dr. Bea as follows:
(a) In July 2015, Plaintiff and Dr. Bea had a
conversation in which he asked her “many personal
questions, including where she was staying on
campus, how she was spending her evenings, whether
she had friends staying with her during the summer,
and how her relationship with her boyfriend was. Bea
then invited [Plaintiff] to dinner with him. Ms. Bose
declined his invitation, and the conversation ended.”
(b) “Bea would show up in [Plaintiff’s] lab course
every week. Without being solicited by [Plaintiff],
Bea would make it a point to stop by [Plaintiff’s] desk,
look at her work, correct any lab mistakes without
being asked and speak to her prior to leaving.”
(c) “Around the third week of November 2015 . . . ,
[Plaintiff] was sitting with a classmate in the
Catherine Burrow Refectory texting on her cell
phone. Dr. Bea approached [Plaintiff] from behind,
leaned over her shoulder, and abruptly asked her,
‘Are you texting your boyfriend?’ before leaving the
Refectory.”
(ECF No. 120, 12:39–14:40.)

30a
Furthermore, her submission explicitly lodged
allegations of retaliation by Defendant Bea as a result of
Plaintiff confronting him about the above-referenced
conduct. (Id. at 99–106.)
On January 28, 2016, before Plaintiff filed a Title IX
complaint form, the FAC held a hearing on the matter.
(Id. at 14:42.) Present were members of the FAC,
Plaintiff, Plaintiff’s attorneys, Rhodes College’s attorney,
and Dean Blaisdell. (Id.) The FAC upheld the finding of
“In Violation” of the Honor Code, and remanded the case
to the HC for reconsideration of the penalty only in light
of new evidence Plaintiff presented at the hearing
concerning lost copies of her tests in Organic Chemistry
II. (Id. at 14:44.) The FAC further concluded that, even if
the allegations of inappropriate behavior by Defendant
Bea were valid, the evidence was adequate enough for the
HC to conclude Plaintiff violated the Honor Code. (Id. at
14:45.)
Shortly after the FAC Hearing, in early February
2016, Plaintiff filled out a Title IX complaint form online
per Ms. Shapiro’s instructions. (Id. at 15:48.) As a result,
Rhodes College retained Attorney Whitney Harmon to
conduct an investigation of Plaintiff’s Title IX complaint.
(Id. at 15:49.) Ms. Harmon interviewed Plaintiff and all of
the witnesses that Plaintiff requested, including Chelsea
Dezfuli, Lauren Sylwester, and Emma Barr. Ms. Harmon
also interviewed Defendant Bea and Dr. Brien (an
Assistant Professor of Chemistry at Rhodes).
(ECF No. 120, 16:50.) On April 6, 2016, Ms. Shapiro
informed Plaintiff, without any form of a hearing, that
“[a]fter careful review of the facts, the allegations of
sexual harassment and retaliation in violation of the
College’s policy cannot be sustained.” (Id. at 16:51.)
Plaintiff was later provisionally admitted to
Oglethorpe University in Atlanta, Georgia, where she
graduated on May 13, 2017, with a Bachelor of Arts

31a
degree in History. (ECF No. 40, 100:16–21; ECF No. 120,
17:55.) She currently lacks all of the prerequisites needed
to apply to medical school, has not taken the MCAT, and
has not applied to medical school. (ECF No. 120, 17:55.)
She currently works as an administrative assistant for a
law firm. (Id. at 17:55–56.)
LEGAL STANDARD
In evaluating a motion for summary judgment,
federal courts are guided by Federal Rule of Civil
Procedure 56, which provides that summary judgment
shall be granted “if the movant shows that there is no
genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a); see Tolan v. Cotton, 134 S. Ct. 1861, 1866 (2014) (per
curiam). A fact is “material” if it is capable of affecting
the outcome of the litigation, Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248 (1986), and a dispute is “genuine” if
the evidence is such that a reasonable jury could return a
verdict for the nonmoving party. See Scott v. Harris, 550
U.S. 372, 380 (2007). Thus, summary judgment will not be
granted if the nonmoving party presents specific facts,
both supported by the record and admissible at trial, that
would allow a reasonable jury to find in its favor. See Fed.
R. Civ. P. 56(c)(1); Liberty Lobby, Inc., 477 U.S. at 256.
To support or oppose a motion for summary
judgment, a party may rely on materials in the record,
including affidavits, declarations, or other competent
evidence, setting forth specific facts showing that there is
a genuine issue for trial. Fed. R. Civ. P. 56(c); Celotex
Corp. v. Catrett, 477 U.S. 317, 324 (1986). The district
court does not have the duty to search the record for such
evidence when not explicitly cited by the parties but may,
on its own accord, consider other materials in the record.
See Fed. R. Civ. P. 56(c)(3). In assessing the merits of a
summary judgment motion, courts must remain mindful
that “‘[c]redibility determinations, the weighing of the

32a
evidence, and the drawing of legitimate inference from
the facts . . . are jury functions, not those of a judge.’”
Reeves v. Sanderson Plumbing Prods., 530 U.S. 133, 150
(2000) (quoting Liberty Lobby, Inc., 477 U.S. at 255)).
Indeed, if the evidence presented, alone cannot
“reasonably support a jury verdict in favor of the
nonmoving party, the motion for summary judgment will
be granted.” Cox v. Kentucky DOT, 53 F.3d 146, 150 (6th
Cir. 1995).
ANALYSIS
Title IX Claims
The Court finds that Defendants are entitled to
summary judgment on Plaintiff’s Title IX claims. In her
Complaint, Plaintiff alleges that Defendant Rhodes acted
with deliberate indifference to her claim of sexual
harassment against Defendant Bea, and that as a result of
confronting Defendant Bea, she suffered a retaliatory
expulsion. (ECF No. 1, 8:41–44.) The Court’s analysis
considers her allegations as both deliberate indifference
and retaliation claims.
Title IX prohibits discrimination and retaliation
against those who complain of discrimination by
educational institutions receiving federal education
funding. 20 U.S.C. § 1681; Jackson v. Birmingham Bd. of
Educ., 544 U.S. 167, 173–74 (2005). The two primary
objectives of Title IX are to “avoid the use of federal
resources to support discriminatory practices” and
“provide individual citizens effective protection against
those practices.” Cannon v. Univ. of Chicago, 441 U.S.
677, 704 (1979).
Deliberate Indifference
The Court finds that Plaintiff’s does not sufficiently
state a Title IX claim for deliberate indifference. “Under
the deliberate-indifference theory, a plaintiff must
‘demonstrate that an official of the institution who had

33a
authority to institute corrective measures had actual
notice of, and was deliberately indifferent to, the
misconduct.’” Doe v. Miami Univ., No. 17-3396, 2018 U.S.
App. LEXIS 3075, at *17 (6th Cir. Feb. 9, 2018) (quoting
Mallory v. Ohio Univ., 76 F. App’x 634, 638 (6th Cir.
2003)). Moreover, “[t]he deliberate indifference must, at a
minimum, cause students to undergo harassment or make
them liable or vulnerable to it.” Thomas v. Meharry Med.
Coll., 1 F. Supp. 3d 816, 827 (M.D. Tenn. 2014); see also
M.D. v. Bowling Green Indep. Sch. Dist., No. 1:15-CV00014-GNS-HBB, 2017 U.S. Dist. LEXIS 11504, at *25
n.4 (W.D. Ky. Jan. 27, 2017), aff’d, 2017 U.S. App. LEXIS
19651 (6th Cir. Oct. 6, 2017).
Here, the record shows that Plaintiff did not notify
Defendant Rhodes of the alleged sexual harassment until
the conclusion of the hearing before the HC. As
Defendants contend, Plaintiff does not provide evidence
that she suffered any further sexual harassment, or risk
of the same, by Defendant Bea after notifying Defendant
Rhodes of Bea’s alleged conduct. Moreover, the record
also fails to show that, prior to the alleged conduct,
Rhodes was otherwise aware that Defendant Bea had
engaged in the same or similar conduct. Accordingly,
Plaintiff fails to state a prima facie case for deliberate
indifference under Title IX.
Retaliation
The Court additionally finds that Plaintiff fails to
sufficiently state a Title IX claim for retaliation. To
establish a prima facie case of retaliation under Title IX,
Plaintiff must show that (1) she engaged in statutorily
protected activity; (2) her exercise of rights was known to
Rhodes; (3) she was subjected to the adverse action
contemporaneously with, or subsequent to, the protected
activity; and (4) there is a causal connection between the
protected activity and the adverse educational action. See
Thomas, 1 F. Supp. 3d at 827. Additionally, as noted by

34a
the Supreme Court, “Congress did not intend to allow
recovery in damages under Title IX where liability rests
solely on principles of vicarious liability or constructive
notice.” Gebser v. Lago Vista Indep. Sch. Dist., 524 U.S.
274, 287–288 (1998) (“Title IX’s express means of
enforcement—by administrative agencies—operates on
an assumption of actual notice to officials of the funding
recipient[,]” but “[i]f a school district’s liability for a
teacher’s sexual harassment rests on principles of
constructive notice or respondeat superior, it will likewise
be the case that the recipient of funds was unaware of the
discrimination.”).
Here, the Court agrees with Defendants’ assertion
that Plaintiff cannot demonstrate the requisite causal
connection needed to show a prima facie case of
retaliation. (ECF No. 116, 4; ECF No. 123, 1–2.)
According to Plaintiff, a prima facie case of retaliation is
present here because (1) the Court previously determined
that Plaintiff has offered sufficient evidence to establish
such in it its Order on Plaintiff’s Motion for Temporary
Restraining Order and Preliminary Injunction; (2) under
the “Cat’s paw” theory of liability, Rhodes College is liable
for its actions that served as a conduit for Defendant Bea’s
retaliatory motive in causing Plaintiff’s expulsion; and (3)
the evidence presented is sufficient to find pretext for
discrimination. (ECF No. 119, 6–8, 11–13.) As Defendants
note, the findings of a district court in the context of a
preliminary injunction do not bind this court in
subsequent proceedings. Ford Motor Co. v. Lloyd Design
Corp., 22 F. App’x 464, 469 (6th Cir. 2001). Thus,
Plaintiff’s first argument—that the Court’s findings in its
Order on Plaintiff’s Motion for Temporary Restraining
Order and Preliminary Injunction now bind this Court on
the present matter—is of no avail.
In addition, Defendant Bea’s alleged retaliatory
motive cannot be imputed to the HC because the “cat’s

35a
paw” theory of liability used by Plaintiff is, in essence,
based on principles of respondeat superior and/or
constructive notice not applicable in the Title IX context.
(ECF No. 116, 11.) Under the cat’s paw theory, the
discriminatory or retaliatory animus of a nondecisionmaker is imputed to a decisionmaker where the
non-decisionmaker uses the decisionmaker as a dupe in a
deliberate scheme to trigger a discriminatory or
retaliatory action. Marshall v. Rawlings Co. LLC, 854
F.3d 368, 377 (6th Cir. 2017). In essence, the theory is an
attempt to hold a decisionmaker liable, through principles
of vicarious liability or constructive notice, for a decision
tainted by the animus of a non-decisionmaker. Crews v.
Paine, 686 F. App’x 540, 546 (10th Cir. 2017); see Waters
v. City of Chicago, 580 F.3d 575, 587 n.2 (7th Cir. 2009)
(“Imputing a non-decisionmaker’s motive to a[n]
employer sounds a lot like respondeat superior liability.).
The Supreme Court, in Gebser v. Lago Vista Indep. Sch.
Dist., held that Title IX does not allow recovery for harms
based on principles of constructive notice or respondeat
superior. 524 U.S. at 287–288. Here, liability for
Defendant Bea’s actions cannot be imputed to Defendant
Rhodes because the record does not reflect that Rhodes
retained actual knowledge of Bea’s alleged retaliatory
animus, and as the Court held in Gebser, theories based
on constructive notice or respondeat superior are not
available under Title IX.
Plaintiff, however, attempts to distinguish Gebser
from this case by noting that it dealt with sexual
harassment as opposed to retaliation. (ECF No. 119, 8.)
In Gebser’s stead, Plaintiff cites Moresi v. Potter, No. 072758-JPM, 2012 U.S. Dist LEXIS 46363, at *58 (W.D.
Tenn. Mar. 9, 2012) to argue that she brings a “conduit
theory of liability” that allows for application of the cat’s
paw theory of liability, as opposed to one of respondeat
superior or vicarious liability. (ECF No. 119, 8.) In other

36a
words, according to Plaintiff, “Defendant Rhodes would
not be held liable for the actions of Defendant Bea, but
instead held liable for its own actions that channeled or
served as conduit for Defendant Bea’s retaliatory motive
in causing [Plaintiff] to be expelled.” (Id. at 8.) The
proffered distinction, however, is unavailing.
In Moresi, an employee held liable their employer for
its management personnel’s actions, on a retaliatory
discrimination allegation under Title VII. See Moresi,
2012 U.S. Dist LEXIS 46363, at *41. Although the case
supports the proposition that courts look to Title VII to
frame and inform their analyses under Title IX, this
analogous treatment does not extend to agency principles,
given textual difference between the two Titles. See
Franklin v. Gwinnett Cnty. Pub. Schs., 503 U.S. 60, 74–
75 (1992). As noted by the Supreme Court, “Title VII, in
which the prohibition against employment discrimination
runs against ‘an employer,’ explicitly defines ‘employer’ to
include ‘any agent,’” whereas “Title IX contains no
comparable reference to an educational institution’s
‘agents,’ and so does not expressly call for application of
agency principles.” Gebser, 524 U.S. at 283 (citations
omitted). Even more, the caselaw relied upon by the
Court in Moresi, admittedly held that the “conduit theory
of liability” it employed “is in accord with the agency
principles and policies underlying Title VII.” See e.g.,
Roberts v. Principi, 283 F. App’x 325, 333 (6th Cir. 2008);
Lyle v. Cato Corp., 730 F. Supp. 2d 768, 782 (M.D. Tenn.
2010).
Plaintiff also cites DeNoma v. Hamilton Cnty. Court
of Common Pleas, 626 F. App’x 101 (6th Cir. 2015) to
argue that the expansive treatment of the cat’s paw
theory of liability in the context of § 1983 claims should
result in the principle’s extension to Title IX. (ECF No.
119, 9–10.) Specifically, Plaintiff notes that in DeNoma,
despite the Supreme Court’s express rejection of

37a
respondeat superior liability in § 1983 claims against the
government, the Sixth Circuit held that the cat’s paw
liability theory was applicable to a claim brought under
the Equal Protection Clause pursuant to § 1983 because
the Sixth Circuit interprets such claims consistent with
those brought under Title VII. (ECF No. 119, 9–10
(quoting DeNoma, 626 F. App’x at 107–08).) According to
Plaintiff, this Court should extend the same treatment to
her Title IX retaliation claim. Plaintiff’s contention,
however, is misguided. The findings of the court in
DeNoma, do not overcome the actual notice requirement
and textual differences between Title IX as compared to
Title VII—the reasons for which courts do not apply
constructive notice or respondeat superior theories in the
Title IX context. Gebser, 524 U.S. at 283; Franklin, 503
U.S. at 74–75. Thus, the courts’ expansive application of
the cat’s paw theory of liability in certain § 1983 claims
does not provide sufficient grounds for allowing the
theory in the Title IX context. (ECF No. 119, 9.) As a
result of the above determinations, the Court finds that
Plaintiff fails to sufficiently state a claim under Title IX,
and accordingly, Defendants are entitled to summary
judgment on the matter.
A. Breach of Contract
Choice-of-Law
This case presents a threshold choice-of-law question.
A federal court sitting in diversity applies “state
substantive law and federal procedural law[,]” Gasperini
v. Ctr. for Humanities, 518 U.S. 415, 427 (1996), as well as
the choice-of-law rules of the forum state. Andersons, Inc.
v. Consol, Inc., 348 F.3d 496, 501 (6th Cir. 2003); see also
Klaxon Co. v. Stentor Elec. Mfg. Co., 313 U.S. 487, 496
(1941). The present matter is before the Court on federal
question and diversity grounds, and this Court sits in the
forum state of Tennessee. Thus, Tennessee’s choice-oflaw rules apply. See Klaxon Co., 313 U.S. at 496–97. For

38a
claims based in contract law, “Tennessee follows the rule
of lex loci contractus, meaning it presumes that the claims
are governed by the jurisdiction in which [the contract]
was executed absent a contrary intent.”
Town of Smyrna v. Mun. Gas Auth. of Ga., 723 F.3d
640, 645 (6th Cir. 2013). A review of the record reveals that
the relevant contracts here—Rhodes College’s Title IX
and Nondiscrimination Handbook (“Title IX Handbook”),
2012 Agreement, 2012 MOU, and HC Constitution—do
not contain choice-of-law provisions. (ECF No. 59, 17:32.)
Nonetheless, as the parties concede in their arguments,
the contracts were issued and delivered in Tennessee. Id.
Thus, for purposes of this analysis, Tennessee substantive
law applies.
Contract Interpretation Under Tennessee Law
“The Tennessee Supreme Court ‘has not . . .
enunciated the standard which should be applied in a
dispute arising out of the university-student
relationship.’” Anderson v. Vanderbilt Univ., 450 F.
App’x 500, 502 (6th Cir. 2011) (quoting Doherty v. S. Coll.
of Optometry, 862 F.2d 570, 577 (6th Cir. 1988)).
Generally, though, the relationship between a student and
a private university is contractual in nature. Id.
“Accordingly, a student may raise breach of contract
claims arising from a university’s alleged failure to comply
with its rules governing disciplinary proceedings.”
Anderson, 450 F. App’x at 502. “In construing the terms
of the implied contract, however, the Sixth Circuit
assumes that Tennessee courts ‘would adopt the
deferential standard of reasonable expectation—what
meaning the party making the manifestation, the
university, should reasonably expect the other party to
give it.’” Id. (quoting Doherty v. S. Coll. of Optometry, 862
F.2d 570, 577 (6th Cir. 1988)). Ultimately, the existence of
a breach is determined by whether an educational
institution “substantially complied” with its own

39a
procedures or rules. See Anderson v. Vanderbilt Univ.,
No. 3-09-0095, 2010 U.S. Dist. LEXIS 52381, at *37 (M.D.
Tenn, May 27, 2010), aff’d, 480 F. App’x 500 (6th Cir. 2011)
(per curiam). Courts must additionally remain mindful
that a college or university’s disciplinary committee is
entitled to a presumption of honesty and integrity. See
Anderson, 2010 WL 2196599, at *38.
Furthermore, just as for any breach of contract claim
in Tennessee, a plaintiff must offer evidence of (1) the
existence of an enforceable contract, (2) nonperformance
amounting to a breach, and (3) damages proximately
resulting from the breach. See id. at *29.
Article IV, Section 3(A)(2)—Failure to Recuse
Plaintiff asserts that Defendant Rhodes breached
Article IV, Section 3(A)(2) of the HC Constitution when
HC member Zain Virk failed to recuse himself from the
HC Hearing, given his position as Defendant Bea’s
research assistant. (ECF No. 1, 9:53.) Article IV, Section
3(A)(2) states as follows:
The Council must act with complete impartiality. Any
Council member who believes that his or her
participation in any aspect of the investigation or
hearing process constitutes a conflict of interest must
report the potential conflict of interest to the HC
President, who shall decide whether that member
should recuse himself or herself.
HC Constitution, Article IV, Section 3(A)(2).
Under the provision, the decision of whether a
particular HC member must recuse themselves from an
HC hearing is left to the sound discretion of the President.
(HC Constitution, Article IV, Section 3(A)(2); see also
ECF No. 44, 28:17–20.) Here, the HC President is Ms.
Adolph. (ECF No. 116-4, 26.) According to the record, Ms.
Adolph asked Mr. Virk before and during the hearing if
he could be impartial despite working in Defendant Bea’s

40a
lab, and he told her that he believed he could be. (ECF
No. 44, 46:16–47:12.) In her discretion, Ms. Adolph did not
order his recusal. Nothing in the record indicates that Ms.
Adolph in any way abused her discretion. Thus,
Defendants are entitled to a summary judgment ruling on
Plaintiff’s breach of contract claim pursuant to Article IV,
Section 3(A)(2).
Article IV, Section 2(F)—Hearing Process
Confidentiality
Plaintiff also asserts that Defendant Rhodes
breached Article IV, Section 2(F) of the HC Constitution
when Defendant Bea admitted that he spoke with other
chemistry professors about his allegations of Plaintiff
cheating and stealing. (ECF No. 1, 10:53.) Article IV,
Section 2(F) states, “All participants in the hearing
process should keep the matter under consideration
confidential.” HC Constitution, Article IV, Section 2(F).
The record reflects that before the HC Hearing,
Defendant Bea discussed the circumstances surrounding
Plaintiff’s alleged cheating with other chemistry
professors. (ECF No. 44, 122:9–123:12.) Specifically, Bea
told Dr. Kim Brien and another professor that he believed
Plaintiff was cheating and discussed with them ways to
catch Plaintiff in the alleged act. (Id.) It does not reflect,
however, when these conversations took place, making it
unclear whether the conversations occurred prior to or
during the hearing process.” Nonetheless, during the
FAC Hearing, Ms. Adolph stated that Defendant Bea
“was not under the oath read aloud during the hearing to
keep those matters confidential” and that “[s]uch
conversations between professors during a case, but not a
hearing, are discouraged but do occur.” (ECF No. 116-2,
67.) The evidence presented supports these facts. (ECF
No. 44, 122:1–123:15.) Additionally, Plaintiff neither
argues nor does the record reflect that Defendant Bea
took any other similarly binding affirmation of

41a
confidentiality, before asking his colleagues about their
academic public folders. Lastly, Plaintiff does not provide
how the above conversations, even if in violation of Article
IV, Section 2(F), caused her injury—a necessary element
of a breach of contract claim. Accordingly, Defendants are
entitled to a summary judgment ruling on Plaintiff’s
breach of contract claim under Article IV, Section 2(F).
Article IV, Section 3(A)(4)—Disruptive Behavior
Additionally, Plaintiff asserts that Defendant Rhodes
breached Article IV, Section 3(A)(4) of the HC
Constitution by allowing Defendant Bea to act
aggressively throughout the HC Hearing, ultimately,
inhibiting Plaintiff and her witnesses from fully testifying.
Article IV, Section 3(A)(4) states, “Disruptive behavior on
the part of anyone present shall result in immediate and
permanent removal from the hearing.” HC Constitution,
Article IV, Section 3(A)(4). The President of the HC, as
Defendants note, presides over its hearings in accordance
with Article IV, Section 3(A)(1) of the HC Constitution.
Accordingly, the question of whether to remove someone
from a hearing for “disruptive behavior” is reasonably
understood to be in the discretion of the President. A
reading of the HC Transcript reveals that President
Adolph was aware that Defendant “Bea did get animated
at times” and that she addressed his behavior by
reminding him at every such instance of the need to
uphold the procedures required throughout the hearing.
(ECF No. 116-4, 29.) Ultimately, President Adolph, in her
discretion, decided that removal of Defendant Bea was
not warranted. Furthermore, the HC Hearing transcript
does not clearly demonstrate that Defendant Bea acted so
inappropriately during the hearing that his continued
presence in the proceeding was so disruptive, as to
warrant removal. Accordingly, Defendants are entitled to
a summary judgment ruling on Plaintiff’s breach of
contract claim under Article IV, Section 3(A)(4).

42a
Article II, Section 4—President’s Impartial
Participation
Next, Plaintiff asserts that Defendant Rhodes
breached Article II, Section 4 of the HC Constitution
when President Adolph asked questions and made
comments in the hearing. (ECF No. 1, 53.) Specifically,
Plaintiff takes issue with President Adolph’s repeated
question to her of whether Plaintiff believed that
Defendant Bea was telling the truth throughout the
hearing process. (Id.) Plaintiff’s argument is not welltaken. Article II, Section 4 states that, [t]he President
shall decide questions of procedure and interpretations
arising under the Constitution[;] the President’s role in
the hearing and in deliberations shall be one of impartial
participation, and the President shall not vote.” HC
Constitution, Article II, Section 4. Upon review of the
record, the Court finds that nothing in the HC
Constitution expressly prohibited the HC President from
asking questions in an HC hearing. Moreover, President
Adolph’s questions and comments, if not aimed at
clarifying arguments and testimony or preserving the
procedural integrity of the proceedings, do not
demonstrate a level of impartiality or unreasonableness
warranting this Court’s intervention. Accordingly,
Defendants are entitled to a summary judgment ruling on
Plaintiff’s breach of contract claim under Article II,
Section 4.
Article IV, Section 2(G)—Clear and Convincing
Evidence
Plaintiff also argues that Defendant Rhodes
breached Article IV, Section 2(G) of the HC Constitution
when it found Plaintiff in violation of the Honor Code, by
clear and convincing evidence, based only on Defendant
Bea’s testimony and the “fake” answer key created.
Plaintiff further takes issue with Ms. Adolph’s refusal to
allow Plaintiff to present evidence concerning Defendant

43a
Bea’s alleged inappropriate conduct towards the end of
the HC Hearing. The Court finds Plaintiff’s arguments
unpersuasive.
Article IV, Section 2(G) states, “The Council may find
the Accused ‘In Violation’ of the Honor Code only upon
clear and convincing evidence. ‘Clear and convincing
evidence’ is an intermediate standard of proof, greater
than ‘by a preponderance of evidence,’ but less than
‘beyond a reasonable doubt.’” HC Constitution, Article
IV, Section 2(G). Moreover, Article IV, Section 3(A)(10)
states, “The Council’s findings of ‘In Violation’ or ‘Not in
Violation’ shall be based only on the merits and facts of
the case at hand.” HC Constitution, Article IV, Section
3(A)(10). Here, the HC made a determination on the
evidence presented before it when it credited Defendant
Bea’s proof over Plaintiff’s and found that Defendant
Bea’s testimony and the “fake” answer key matching
Plaintiff’s answers necessitated a finding that Plaintiff
violated the Honor Code by cheating and stealing. (See
ECF No. 44, 52:22–53:5.) As to Ms. Adolph preventing
Plaintiff from presenting evidence on Defendant Bea’s
alleged conduct, the Honor Council Constitution states
that “the president shall decide questions concerning the
relevance or admissibility of witnesses and/or evidence.”
Thus, the violation by clear and convincing evidence is not
so inappropriate or unreasonable as to warrant this
Court’s intervention. After viewing the facts in the light
most favorable to Plaintiff, the Court finds Defendants
are entitled to summary judgment on Plaintiff’s breach of
contract claim pursuant to Article IV, Section 2(G).
Failure to Investigate
Plaintiff also asserts claims for breach of the Title IX
Handbook. Specifically, Plaintiff makes two primary
arguments: (1) that Defendant Rhodes failed to
investigate her claim of retaliation; and (2) that Defendant
Rhodes did not afford Plaintiff the type of investigatory

44a
process contemplated by the Title IX Handbook when it
precluded her from having a Formal Resolution Hearing
on her retaliation claim. (ECF No. 119, 14; see also ECF
No. 1, 11:55–14:56.) The Title IX Handbook states:
Rhodes College will address allegations of sexual
misconduct or harassment in a timely and effective
way, provide resources as needed for affected
persons . . . and not tolerate retaliation against any
person who reports sex/gender discrimination or
sexual misconduct.
(ECF No. 124, 4.)
The Title IX Handbook indicates that all claims will
be investigated by an “investigator” and that
“[d]epending on how the Claim proceeds, the
investigation report(s) and the parties’ responses may be
presented at a Formal Resolution Hearing and/or may be
presented an Informal Resolution Conference.” (See id. at
4:73.) Furthermore, the Title IX Handbook reads, “Once
the Title IX Coordinator learns of any incident of alleged
sex/gender discrimination or sexual misconduct from a
Mandatory Reporter, they will initiate an investigation
into the alleged incident.” (ECF No. 120-1, 121.) Thus,
under the plain language of the contract, Defendant
Rhodes should reasonably expect students to interpret
the above provisions to mean that Rhodes has a
contractual obligation to investigate all Title IX
allegations it receives.
Defendants first contend that Plaintiff waived her
breach of contract claim alleging a failure to investigate
because she failed to properly plead her claim. (ECF No.
123, 4.) The Court cannot agree. It is not proper for this
Court to assume facts Plaintiff has not pleaded. Assoc.
Gen. Contractors v. Cal. State Council of Carpenters, 459
U.S. 519, 526 (1983). Thus, Plaintiff’s “[C]omplaint must
contain either direct or inferential allegations respecting
all the material elements to sustain a recovery under some

45a
viable legal theory.” In re DeLorean Motor Co., 991 F.2d
1236, 1240 (6th Cir. 1993). Here, Defendant Rhodes has a
contractual obligation to investigate all Title IX
allegations it receives, including those concerning
retaliation. In her Complaint, Plaintiff alleges that
Defendant Rhodes failed to follow the proper
methodology for addressing her Title IX allegations,
citing various provisions of the Title IX Handbook,
including one that states, “A Claim investigation will be
conducted by an Investigator . . . .” (ECF No. 1, 12:55.) As
it relates to this provision, Plaintiff cites facts tending to
show that a Title IX investigation never occurred because
Plaintiff was prevented from presenting witness
testimony or allegations of retaliation to the HC and FAC
and that her allegations were never investigated by the
HC, FAC, or Ms. Harmon. (Id. at 6:27–7:39, 9:53–14:56.)
Thus, Plaintiff’s Complaint, at least by inference,
sufficiently states a claim for breach of contract under the
Title IX Handbook for Defendant Rhode’s failure to
investigate her retaliation claim.
Defendants next contend that even if Plaintiff did not
waive her “failure to investigate” claim, the allegation
cannot survive summary judgment because Defendants
substantially complied with the relevant contract(s).
(ECF No. 116, 19.) Specifically, Defendants contend that
Plaintiff cannot escape the fact that she received two full
and fair opportunities in front of the HC and the FAC to
allege that Defendant Bea’s conduct was retaliatory,
opportunities of which she took full advantage of. (Id. at
18–19.) The Court cannot agree.
The Court finds that summary judgment in favor of
Defendants is not appropriate on Plaintiff’s failure to
investigate claim due to material disputes of fact in the
record. For purposes of this analysis, the Court again
notes that the Title IX Handbook reasonably reads that
Defendant Rhodes will investigate a student’s Title IX

46a
allegation of retaliation. Thus, the point at which Plaintiff
made a Title IX retaliation claim, if at all, is relevant to a
summary judgment determination on the issue. Here, the
record reflects that Plaintiff’s Title IX complaint form,
which explicitly triggers Defendant Rhodes contractual
obligation to complete a Title IX Investigation, was not
filed at the time of the HC Hearing. (ECF No. 120, 11:34,
15:48.)
It was not until her closing statement before the HC
that Plaintiff first made Defendant Rhodes aware of
alleged inappropriate occurrences between Defendant
Bea and herself and attempted to present proof on the
matter as it relates to allegations of retaliation. (ECF No.
116-2, 67; ECF No. 116-4, 31.) However, she was
prevented from doing so because it was too late in the
proceeding. (ECF No. 116-2, 67.) Despite this,
Defendants contend that Plaintiff could have presented
her retaliation claim to the HC, and thus, the HC Hearing
satisfied Rhodes contractual obligation to conduct a Title
IX Investigation. (ECF No. 123, 4.) That argument,
however, is of no avail because Defendant Rhodes has a
contractual obligation to investigate all Title IX
retaliation claims when made. The opportunity to present
a claim and the implementation and sufficiency of an
investigation brought upon the submission of such a claim,
are not the same inquiries. Here, by the HC’s own
admission, it did not consider Plaintiff’s allegation of
Defendant Bea’s inappropriate conduct, which serves as
the basis of her retaliation claim, as evidence in making its
determination. (ECF No. 44, 52:2–18.) Thus, summary
judgment on Plaintiff’s failure to investigate claim, as a
result of the HC Hearing, is not appropriate.
Moreover, the Court finds that summary judgment in
favor of Defendants, on Plaintiff’s failure to investigate
claim, is not appropriate based on the FAC Hearing. To
be certain, Plaintiff presented her retaliation claim to the

47a
FAC in writing and attempted to do so at the FAC
Hearing. (ECF No. 116-3, 40–47, 96–97). The FAC, by its
own admission however, simply addressed the “In
Violation” determination by the HC, without determining
the validity or effect of Plaintiff’s allegations regarding
Defendant Bea. (ECF No. 40, 178:18–180:1; ECF No. 120,
14:44.) Specifically, the FAC concluded that, even if the
allegations of inappropriate behavior by Defendant Bea
were valid, the evidence was adequate enough for the HC
to conclude Plaintiff violated the Honor Code. (ECF No.
120, 14:45.) Thus, the FAC concluded that even if
Defendant Bea retained a retaliatory motive in reporting
Plaintiff to the HC, the evidence still showed that Plaintiff
violated the Honor Code by cheating and stealing.
Defendants contend that such constitutes substantial
compliance with their contractual obligations. The Court
disagrees.
As the FAC and Plaintiff submit, the abovereferenced finding by the FAC focuses purely on whether
Plaintiff violated the Honor Code, not whether Defendant
Bea retaliated against Plaintiff. (ECF No. 1, 6:33.) At no
time did the FAC discuss the substance of Plaintiff’s Title
IX retaliation claims with her but merely discussed why
she did not present proof on the allegations during the HC
Hearing. (See e.g., ECF No. 116-4, 31.) This conclusion is
bolstered by the FAC’s determination that the only new
evidence presented to it concerned Plaintiff’s lost copies
of her Organic Chemistry II tests. Perhaps more
importantly, Plaintiff’s retaliation claim, as pleaded,
requires consideration of the inappropriate occurrences
allegedly committed by Defendant Bea. The Court finds
this significant in that the retaliatory motive allegedly
held by Defendant Bea, under Plaintiff’s theory of the
case, would tend to negate the likelihood that Plaintiff
cheated, in direct opposition to the HC’s findings. Thus,
for the reasons above, a reasonable jury could conclude

48a
that Defendant Rhodes did not investigate Plaintiff’s Title
IX retaliation allegation or substantially comply with it
investigatory obligations through the FAC.
A summary judgment finding in favor of Defendants,
based on Ms. Harmon’s investigation, is also not
appropriate. After Plaintiff filed her Title IX complaint
form, Ms. Harmon was hired to investigate Plaintiff’s
allegations therein. (ECF No. 120, 15:49.) There is a
discrepancy, however, as to whether Plaintiff actually
presented her Title IX retaliation claim to Ms. Harmon,
despite Defendant Rhodes’ knowledge of the allegations
at the commencement of her investigation. Indeed,
Defendants dispute whether Plaintiff ever presented the
retaliation claim to Ms. Harmon, despite Harmon’s
finding that Plaintiff’s retaliation claim was
unsubstantiated, (id. at 15:49–16:52), while Plaintiff
contends that Harmon, though presented with both
Plaintiff’s harassment and retaliation claim, only
investigated Plaintiff’s harassment claim. (Id. at 16:52–
17:53.)
Although
Harmon’s
investigation
and
determinations were allegedly transcribed or otherwise
documented the record is void of any such material.
Whether Plaintiff presented her retaliation claim to
Harmon, whether Harmon’s investigation included
consideration of Plaintiff’s retaliation allegations, and the
extent of the investigation as it relates to the allegations,
are all material facts necessary to the determination of
whether Defendant Rhodes breached its obligation to
investigate Plaintiff’s Title IX retaliation claim. Since the
answers to these inquiries are disputed and not otherwise
evident from the record, the Court cannot find that
Defendants, through Ms. Harmon, satisfied or
substantially complied with its obligation to investigate all
Title IX claims.
To the extent Defendants allege that Plaintiff’s
breach of contract claim for failure to investigate is

49a
lacking because Plaintiff did not adequately allege
damages, the Court disagrees. Specifically, Defendants
argue that Plaintiff’s alleged damages as a result of her
expulsion from Rhodes fails because she was already
expelled from Rhodes College at the time the abovereferenced “investigations” occurred. (ECF No. 116, 20.)
However, this line of reasoning fails to consider the
inverse relationship alleged by Plaintiff concerning the
Honor Code violation found by Rhodes and Plaintiff’s
theory for her retaliation claim. If Defendant Bea
retaliated against Plaintiff, that retaliation may include
the fabrication of evidence tending to show Plaintiff
cheated, which would tend to negate the validity of the
evidence used to find Plaintiff guilty of cheating and
stealing in violation of the Honor Code. Thus, if no
“investigation” occurred, then the validity of Plaintiff’s
Honor Code violation, and resulting expulsion, is
questionable. Poynter v. GMC, No.: 3:06-CV-226, 2007
U.S. Dist. LEXIS 83542, at *8–9 (E.D. Tenn. Nov. 9,
2007); Kindred v. Nat’l College of Bus. & Tech., Inc., 2015
Tenn. App. LEXIS 124, at * 19–20 (Tenn. Ct. App. Mar.
19, 2015). That, after all, is Plaintiff’s theory of liability.
Accordingly, under Plaintiff’s theory of the case, the
existence of damages is not speculative here. Poynter v.
GMC, 2007 U.S. Dist. LEXIS 83542, at *9. For these
reasons, this Court denies Defendants’ summary
judgment request on Plaintiff’s breach of contract claim
for failure to investigate her Title IX allegation.
Failure to Hold Formal Resolution Hearing
Plaintiff also claims that Defendant Rhodes breached
the Title IX Handbook when it did not permit her “to
present her claims within the context of a Formal
Resolution Hearing. (ECF No. 1, 13:55; ECF No. 119, 14–
15.) The Title IX Handbook states, “A Claim investigation
will be conducted by an Investigator . . . . Depending on
how the Claim proceeds, the investigation report(s) and

50a
the parties’ responses may be presented at a Formal
Resolution Hearing and/or may be presented at an
Informal Resolution Conference.” (ECF No. 120-1, 129–
30.)
Under the plain language of the Title IX Handbook,
Defendant Rhodes should not reasonably expect its
students to conclude that a Formal Resolution Hearing
and/or Informal Resolution Hearing is guaranteed by the
filing and investigation of a Claim. Indeed, such a hearing
depends on how the Claim proceeds. Thus, Defendant
Rhodes’ failure to provide Plaintiff a Title IX Hearing
does not constitute a breach of the Title IX Handbook.
Defendants are accordingly entitled to summary
judgment on the issue.
Intentional Interference with Business Relations
Defendants argue that summary judgment should be
granted in their favor on Plaintiff’s claim that each
Defendant here tortuously interfered with business
relations. Specifically, Plaintiff alleges that Defendant
Bea interfered with the contractual and business relations
between Rhodes and Plaintiff, negatively affecting her
ability to pursue her education, (ECF No. 1, 18:92–18:96;
ECF No. 119, 16), and that Defendant Rhodes interfered
with Plaintiff’s contractual relationship with GWSMHS.
(ECF No. 1, 15:65–71.) To establish a claim for intentional
interference with a business relationship, Plaintiff must
show the following:
(1) an existing business relationship with specific
third parties or a prospective relationship with an
identifiable class of third persons; (2) the defendant’s
knowledge of that relationship and not a mere
awareness of the plaintiff’s business dealings with
others in general; (3) the defendant’s intent to cause
the breach or termination of the business
relationship; (4) the defendant’s improper motive or

51a
improper means; and finally, (5) damages resulting
from the tortious interference.
Trau-Med of Amer., Inc. v. Allstate Ins. Co., 71 S.W.3d
691, 701 (Tenn. 2002) (citations omitted); see also Lick
Branch Unit, LLC v. Reed, No. 3:13-cv-203, 2014 U.S.
Dist. LEXIS 16259, at *43–44 (E.D. Tenn. Feb. 10, 2014.)
As noted by the Sixth Circuit, this tort is limited to
business relations that are not the product of an existing
contract. See Crouch v. Pepperidge Farm, Inc., 424 F.
App’x 456, 461 (6th Cir. 2011). Moreover, a claim for
tortious interference, generally, cannot proceed when the
purportedly tortious conduct involves the exercise of a
contractual right by the alleged tortfeasor. Franklin
Tractor Sales v. New Holland N. Am., 106 F. App’x 342,
347 (6th Cir. 2004).
Here, Defendants argue that the Court should grant
summary judgment in their favor on Plaintiff’s claim that
Defendant Bea interfered with Plaintiff’s business
relationship with Rhodes because the relationship
between Plaintiff and Rhodes was contractual in nature.
(ECF No. 116, 22.) Defendants also contend that
summary judgment should be granted on Plaintiff’s claim
that Defendant Rhodes interfered with Plaintiff’s
business relationship with GWSMHS because (1) the
conduct of Defendants that Plaintiff takes issue with was
in accordance with Defendant Rhodes’ contractual rights,
and (2) as a party to the GW Contract and MOU
agreement, GWSMHS is not capable of tortuously
interfering with its own contract or business
relationships. (ECF No. 116, 23–24.) Plaintiff responds
that Defendants are misguided, citing Trau-Med of
Amer., Inc., 71 S.W.3d at 701 and Tennison Bros. v.
Thomas, No. W2016-00795-COA-R3-CV, 2017 Tenn. App.
LEXIS 802 at *28–29 (Tenn. Ct. App. Dec. 15, 2017) to
argue, in part, that Tennessee law allows the claim to

52a
proceed on the existence of a prospective contractual
relationship.
Plaintiff and Defendant Rhodes
As to the alleged interference by Defendant Bea, the
Court finds that Defendants are entitled to summary
judgment on the issue. Plaintiff asserts the existence of
contractual and business relations between Defendant
Rhodes and herself. Generally, under Tennessee law, the
relationship between a university and its student is
contractual in nature. Doherty v. S. Coll. of Optometry,
862 F.2d 570, 577 (6th Cir. 1988); see also Corso v.
Creighton Univ., 731 F.2d 529, 531 (8th Cir. 1984). As
noted by Defendants, the tort of intentional interference
with business relations protects non-contractual business
relationships. Here, however, Plaintiff does not reference
any particular business relations with Defendant Rhodes
that is not governed by an existing contract. Thus,
Plaintiff’s intentional interference with business relations
claim against Defendant Bea fails to sufficiently state a
claim, entitling Defendants to summary judgment on the
claim.
Plaintiff and GWSMHS
As to Plaintiff’s allegation that Defendant Rhodes
intentionally interfered with Plaintiff’s prospective
contractual relationship with GWSMHS, the Court finds
that Defendants are not entitled to summary judgment on
the claim. In her Complaint, Plaintiff states that she “was
accepted on an early admission basis to [GWSMHS] and
had an ongoing contractual relationship with
[GWSMHS]” that Defendant Rhodes interfered with by
publicizing to GWSMHS that Plaintiff was involuntarily
withdrawn from Rhodes. (ECF No. 1, 15:66–71.) To be
certain, however, Plaintiff’s relationship with GWSMHS
also concerned prospective contractual or business
relations because Plaintiff had not yet accepted her
admission to GWSMHS by matriculating as a student.

53a
(ECF No. 120, 2:5 (noting that satisfaction of the GW
contract terms allows Plaintiff to gain admission to its
medical school—a wholly separate prospective business
relationship).) To the extent Defendant Rhodes contends
that it is incapable of tortuously interfering with its own
contract or business relations, the above determination
renders the argument moot. Here, Plaintiff does not
allege interference with a contract Defendant Rhodes is a
party to but rather alleges interference with her
prospective relations with GWSMHS as a matriculated
medical student. Thus, contrary to Defendants’
contention, Plaintiff does not bring the tort based solely
on a formally-existing contract but a prospective one. See
Clear Water Partners, LLC v. Benson, No. E2016-00442COA-R3-CV, 2017 Tenn. App. LEXIS 4, at *21–22 (Tenn.
Ct. App. May 12, 2016).
Defendant Rhodes additionally submits that it is
entitled to summary judgment because it is incapable of
committing the instant tort as a result of fulfilling its
contractual obligation under the GW Contract to submit
certain information to GWSMHS. Although it is true that
conduct allowed for under a contract may be privileged,
and thus not subject to the tort of intentional interference
with business relations, such may not be the case where,
as here, the plaintiff alleges that the contract forbade such
actions. Franklin Tractor Sales, 106 F. App’x at 347.
Here, Plaintiff takes issue with Defendant Rhodes
publicizing the Honor Code findings without first
investigating Plaintiff’s allegations against Defendant
Bea, as a matter of its contractual obligations. (See ECF
No. 1, 15:68.) Thus, Defendants’ instant argument fails.
As to the other elements of an intentional
interference with business relations claim, the Court finds
that Plaintiff’s pleadings sufficiently satisfy each. Here,
Defendant Rhodes retained knowledge of Plaintiff’s
prospective relationship with GWSMHS by virtue of the

54a
GW contract. (ECF No. 120, 2:5 (noting that satisfaction
of the GW contract terms allows Plaintiff to gain
admission to its medical school).) As to the third element,
Plaintiff sufficiently pleaded that Rhodes intended to
terminate
her
prospective
contractual/business
relationship with GWSMHS by reporting the HC’s
findings because it knew, by virtue of the GW Contract,
that such would result in termination of any such
relations. Moreover, Plaintiff sufficiently pleaded an
improper motive or means on Defendant Rhode’s part.
“Improper interference”, for purposes of an intentional
interference with business relations claim, may occur
through a breach of a fiduciary relationship, methods that
violate an established standard of a trade or profession, or
otherwise unethical conduct. See Trau-Med of America,
Inc. v. Allstate Ins. Co., 71 S.W.3d 691, 701 (Tenn. 2002).
Here, in the least, Plaintiff sufficiently alleges that
Defendant Rhodes’ failure to investigate Defendant Bea’s
alleged conduct before reporting the Honor Code
violation constituted a breach of Rhodes duty to
investigate her retaliation allegations. Lastly, contrary to
Defendants’ assertions, Plaintiff’s alleged damages are
not impermissibly speculative for the same reasons
articulated in the Court’s consideration of Plaintiff’s
breach of contract claim for failure to investigate. See
Poynter v. GMC, 2007 U.S. Dist. LEXIS 83542, at *9. For
these reasons, Defendants are not entitled to summary
judgment on Plaintiff’s intentional interference with
business relations claim against Defendant Rhodes.
Negligent Failure to Train or Supervise
In her Complaint, Plaintiff contends that Defendant
Rhodes “failed to adequately train and/or supervise its
employees and agents with regard to and in accordance
with its own internal policies and procedures and
applicable state and federal law.” (ECF No. 1, 16:75.)
Defendants submit, however, that this Court should grant

55a
summary judgment in their favor on the claim because
Plaintiff has abandoned it. “A plaintiff in Tennessee may
recover for negligent hiring, supervision or retention of an
employee if he or she establishes, in addition to the
elements of a negligence claim, that the employer had
knowledge of the employee’s unfitness for the job.”
Brown v. Christian Bros. Univ., 428 S.W.3d 38, 56 (Tenn.
Ct. App. 2013). A negligence claim requires that the
following elements are met: “(1) a duty of care owed by
defendant to plaintiff; (2) conduct below the applicable
standard of care that amounts to a breach of that duty; (3)
an injury or loss; (4) cause in fact; and (5) proximate, or
legal, cause.” Freeman v. Wal-Mart Stores E., LP, 781 F.
Supp. 2d 661, 669 (E.D. Tenn. 2011).
In the instant matter, Plaintiff has failed to identify
any agent or employee whom Defendant Rhodes allegedly
failed to properly train or supervise, or that Rhodes had
knowledge of any particular employee’s unfitness for the
job. Brown, 428 S.W.3d at 56. The record is void of
evidence tending to show that Defendant Rhodes should
have foreseen that Defendant Bea, the HC, the FAC, or
Ms. Harmon, were unfit for their jobs. Plaintiff also fails
to allege how any particular agent or employee’s training
was deficient. See Freeman v. Wal-Mart Stores East, LP,
781 F. Supp. 2d 661, 670 (E.D. Tenn. 2011). As a result,
Defendants are entitled to summary judgment on
Plaintiff’s negligent failure to train or supervise claim.
Tennessee Consumer Protection Act
Lastly, Plaintiff brings a claim against Defendant
Rhodes for false and misleading representations in
violation of the Tennessee Consumer Protection Act
(“TCPA”). The specific representation Plaintiff takes
issue with reads as follows:
Rhodes College is committed to providing a working,
educational, social, and residential environment for
all members of our College community, including all

56a
faculty, staff, and students, that is free from any form
of sexual misconduct including harassment and
assault. Sexually abusive behavior is harmful to both
the learning environment and the sense of community
the college is trying to foster among students, faculty,
staff, and administrators. This policy aims to
maintain a consistent, compassionate, campus-wide
mechanism for assisting Rhodes students who have
been sexually assaulted or harassed by a Rhodes
student or employee regardless of where or when the
incident occurred.
(ECF No. 1, 16:78–17:81.)
In order to recover under the TCPA, a plaintiff must
show “(1) that the defendant engaged in an unfair or
deceptive act or practice declared unlawful by the TCPA
and (2) that the defendant’s conduct caused an
ascertainable loss of money or property, real, personal, or
mixed, or any other article, commodity, or thing of value
wherever situated.” Humphreys v. Bank of Am., No. 112514-STA-tmp, 2013 U.S. Dist. LEXIS 67451, at *39–40
(W.D. Tenn. May 10, 2013) (quoting Pagliara v. Johnston
Barton Proctor & Rose, LLP, 708 F.3d 813, 819 (6th Cir.
2013)). The Tennessee Supreme Court has recognized
that a deceptive act or practice is a material
representation, practice or omission likely to mislead a
reasonable consumer. Id. at *40 (quotation omitted). An
unfair practice is one that causes or is likely to cause a
substantial injury to consumers which is neither
reasonably avoidable by consumers themselves nor
outweighed by countervailing benefits to consumers or to
competition. Id.
The Court finds, as Defendants contend, that the
advertisement referenced by Plaintiff concerning the
general character and quality of commitment by
Defendant Rhodes’ regarding its premises is opinion set
forth generally, more like “puffing” or an aspirational

57a
statement that does not give rise to liability under the
TCPA. Maverick Group Mktg. v. Worx Envtl. Prods., 659
F. App’x 301, 303 (6th Cir. 2012); see Wendy’s of Bowling
Green, Inc. v. Marsh USA, Inc., No. 3-10-1043, 2012 U.S.
Dist. LEXIS 13075, at *15 (M.D. Tenn. Feb. 3, 2012); see
also Leonard v. Abbott Labs., Inc., 10-CV4676(ADS)(WDW), 2012 U.S. Dist. LEXIS 30608, at *58–
61 (E.D.N.Y. Mar. 5, 2012). Indeed, the statements that
Defendant Rhodes’ is “committed” to providing
environments free from any sexual misconduct and
“aims” to provide a campus-wide mechanism for assisting
those sexually assaulted or harassed, are akin to loose
general statements made by a seller in commending their
products or services. Wendy’s of Bowling Green, Inc.,
2012 U.S. Dist. LEXIS 13075, at *15 n.11. Thus,
Defendants are entitled to summary judgment on
Plaintiff’s TCPA claim.
CONCLUSION
For the foregoing reasons, the Court finds that
Defendants’ Motion for Summary Judgment is
GRANTED IN PART AND DENIED IN PART.
Summary judgment is GRANTED as to Plaintiff’s Title
IX claims, GRANTED as to Plaintiff’s Breach of Contract
claims under the HC Constitution, DENIED as to
Plaintiff’s Breach of Contract claim under the Title IX
Handbook for failure to investigate her retaliation claim,
GRANTED as to Plaintiff’s Breach of Contract claim
under the Title IX Handbook for failure to provide a
Formal Resolution Hearing, GRANTED as to Plaintiff’s
Intentional Interference with Business Relations claim
against Defendant Bea, DENIED as to Plaintiff’s
Intentional Interference with Business Relations claim
against Defendant Rhodes, and GRANTED as to
Plaintiff’s TCPA claim.

58a

IT IS SO ORDERED this 27th day of February 2018.

[Signature]
JOHN T. FOWLKES, JR.
United States District Judge

59a
APPENDIX C

No. 18-5936
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
PRIANKA BOSE,
Plaintiff-Appellant,
v.
ROBERTO DE LA SALUD BEA;
RHODES COLLEGE,
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)
)

ORDER

BEFORE: SILER, LARSEN, and NALBANDIAN,
Circuit Judges.

The court received a petition for rehearing en banc.
The original panel has reviewed the petition for rehearing
and concludes that the issues raised in the petition were
fully considered upon the original submission and decision
of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for
rehearing en banc.
Therefore, the petition is denied.
ENTERED BY ORDER OF THE COURT

[Signature]
Deborah S. Hunt, Clerk

